Semiannual Report
        to Congress
        September 2006
                     Office of Inspector General
                         Organizational Chart
                                                                     Inspector
                                                                      General
             Office of                                                                                                       Office of
           Administration                                            Deputy                                                  Counsel
                                                                Inspector General


             Office of
                                                                                                                         Office of
         Inspections and
                                                                                                                    Systems Evaluation
       Program Evaluations



                 Office of                                                                                                 Office of
                  Audits                                                                                                Investigations




  Business &              Financial Statements                                                          Investigative                      Investigative
Science Division            & Accountability                                                              Services                         Field Offices
                                 Audits


Contract Audits                   Regional                                                                                Investigative
   Division                        Audits                                                                                Resident Offices



                         Atlanta Regional Office                                                                      Atlanta Resident Office
                         Denver Regional Office                                                                       Denver Resident Office
                         Seattle Regional Office                                                                      Seattle Resident Office




                                                OIG Points of Contact
 Inspector General......................................(202) 482-4661       Office of Counsel......................................... (202) 482-5992
 Legislative and                                                             Office of Inspections and Program Eval...... (202) 482-2754
 Intergovernmental Affairs...........................(202) 482-2187          Office of Investigations................................ (202) 482-0934
 Office of Audits...........................................(202) 482-1934   Office of Systems Evaluation...................... (202) 482-6186
 Office of Administration..............................(202) 482-2637        Media Inquiries............................................ (202) 482-4661

 REQUESTS FOR REPORTS:                                                        OIG HOTLINE:
 Telephone................................................. (202) 482-1243    Telephone...................................................(202) 482-2495
 Internet e-mail.................................. oigweb@oig.doc.gov                                                                    or (800) 424-5197
                                                                              TDD............................................................(202) 482-5923
                                                                              Internet e-mail....................................hotline@oig.doc.gov

                                                       OIG Internet Home Page

                                                  www.oig.doc.gov
      IG’s

Semiannual Report

  to Congress





    September 2006
                                                                  UNITED STATES DEPARTMENT OF COMMERCE
                                                                  The Inspector General
                                                                   Washington, D.C. 20230




September 2006

The Honorable Carlos M. Gutierrez
Secretary of Commerce
Washington, D.C. 20230


Dear Mr. Secretary:

I am writing to submit to you, in accordance with the Inspector General Act of 1978, this semiannual report outlining the
work and activities of the Office of Inspector General for the 6-month period April 1, 2006, through September 30, 2006.
The act requires that we prepare this report twice each year to summarize our assessments of Commerce operations and
that you transmit it, with any comments you may wish to add, to Congress within 30 days of receiving it.

This report highlights a number of key issues that continue to warrant management’s attention, among them, security of
information technology resources. In addition, it includes our recent work in the important areas of the Census Bureau’s
preparations for the 2010 decennial and management of the environmental satellites program by the National Oceanic and
Atmospheric Administration. Both are major initiatives with substantial price tags and large numbers of people involved,
and they will surely benefit from close management oversight to correct any problems already in existence and prevent
new ones from occurring. Finally, I hope you will take special note of the outstanding investigative work this office has
done in this semiannual period.

It is also important to note that Commerce has made substantial progress in addressing some of the top management chal-
lenges in recent years. We will continue to work closely with you and other senior Commerce managers to ensure that
Department resources are always used effectively and efficiently.

It is a pleasure to work with you and your management team, and I extend my personal thanks for partnering with us in a
spirit of cooperation.

Sincerely,




Johnnie E. Frazier
ContentS

IG’s Message to Congress ......................................................................................................................................................................1



Major Challenges for the Department .................................................................................................................................................3

      Strengthen Department-Wide Information Security..........................................................................................................................3

      Effectively Manage Departmental and Bureau Acquisition Processes..............................................................................................6

      Strengthen Internal Controls over Financial, Programmatic, and Business Processes......................................................................6

      Ensure that USPTO Uses Its Authorities and Flexibilities as a Performance-Based Organization to Achieve Better Results .........7

      Control the Cost and Improve the Accuracy of the Decennial Census..............................................................................................7

      Effectively Manage the Development and Acquisition of Environmental Satellites ........................................................................9

      Promote Fair Competition in International Trade............................................................................................................................10

      Effectively Manage NOAA’s Stewardship of Ocean and Living Marine Resources ......................................................................11

      Aggressively Monitor Emergency Preparedness, Safety, and Security Responsibilities ................................................................11

      Enhance Export Controls for Dual-Use Commodities ....................................................................................................................12



Agency Overviews
      Economic Development Administration..........................................................................................................................................15

      Economics and Statistics Administration ........................................................................................................................................21

      International Trade Administration..................................................................................................................................................25

      National Oceanic and Atmospheric Administration ........................................................................................................................29

      Technology Administration..............................................................................................................................................................39

      Department-Wide Management.......................................................................................................................................................43



Office of Inspector General .................................................................................................................................................................47

      Office of Investigations....................................................................................................................................................................47

      Other OIG Activities........................................................................................................................................................................50

      Tables and Statistics.........................................................................................................................................................................53

      Reporting Requirements ..................................................................................................................................................................62



Types of OIG Work Products ..............................................................................................................................................................64

IG’s Message to Congress



I am proud to send you this compilation of the work our office         and well behind schedule. Yet, the contractor had received more
has completed during the second semiannual period of fiscal year       than $123 million in award fees. We uncovered two overarching
2006. My staff continues to perform audits, inspections, and other     management and contract weaknesses that contributed to the
work that result in significant returns to the American people,        unchecked cost and schedule overruns.
either in actual dollars returned to the U.S. Treasury or through
far-reaching systemic improvements in programs and operations          First, we found that while the sensor problems were communicated
that yield better delivery of services to American taxpayers and       to the program’s executive committee (EXCOM), the EXCOM
increased efficiency and accountability. Our investigators also have   did not effectively challenge the integrated program office’s
continued their outstanding work, having, for example, pursued         optimistic assessment of their impact. Though it was clear by
and won a conviction with long prison time for a former National       December 2002 that both costs and delays were increasing, the
Oceanic and Atmospheric Administration employee who had used           program director—a NOAA employee—maintained that these
government computer resources to view child pornography.               problems would be solved within available funding reserves and


           Prevention is the underlying reason for much of what we do and what
           the IG Act expects us to do. It is the reason we spend so much staff
           time working with recipients of Commerce grants to make sure they
           understand the importance of using the funds properly. And preven
           tion is the reason we hold many one-on-one and, often, informal—but
           most effective—meetings with Commerce managers and stakeholders,
           who understand very well the old saying, “An ounce of prevention is
           worth a pound of cure.”

Although the Department of Commerce has made great strides             that NPOESS remained on schedule, and his assessment was
in improving an array of critical activities during these past         never effectively challenged. Three years later it was clear the
months—as evidenced by our removal of one issue from the list          first satellite launch was going to be delayed, but it was too late
of top management challenges earlier this year—we have identi          to turn the program around.
fied issues that require sustained management attention and close
oversight. Clearly, there can be no doubt that the NOAA’s triagency    Second, the NPOESS experience shows that the incentive struc
environmental satellite program is an example of management            ture used to reward contractors does not always result in top
weakness, as shown by testimony before Congress in May 2006.           performance as intended. Despite ongoing, significant delays
Our audit showed the program suffered systemic problems that           and cost overruns, we found the prime contractor was awarded
led to soaring overruns of the project’s costs.                        nearly the maximum fee amounts for the first five billing peri
                                                                       ods. These payments were the result of a flawed award fee plan
                                                                       which, among other things, contained evaluation criteria that did
NPOESS Program Failings
                                                                       not sufficiently tie award fees to completion of the most critical
The National Polar-orbiting Operational Environmental Satellite        or high-risk tasks.
System (NPOESS) is intended to replace the current generation
of civilian and military weather satellites as they reach the end of   Since our report was released, the Deputy Secretary of Commerce
their useful lives. Largely as a result of problems with a critical    has stressed the importance of NPOESS to the Department’s mis
sensor, by September 2005 NPOESS was $3 billion over budget            sion and national responsibilities and noted that he now receives




September 2006/Semiannual Report to Congress                                                                                           
IG’s Message to Congress




monthly NPOESS progress reports from NOAA. He is working                 and ended with the unsavory perpetrator being sentenced to many
with the Under Secretary for Oceans and Atmosphere and the               years in prison.
EXCOM partners to ensure NPOESS is managed, operated, and
monitored in a way that meets the intent of our recommendations          On May 19, 2006, a former NOAA employee entered a guilty
as well as those of the Nunn-McCurdy review process of the FY            plea to federal charges of possession and production of child por
1982 National Defense Authorization Act, which determined that           nography. The man admitted to using government computers to
the program should continue with a reduced number of satellites          download child pornography for approximately 10 years at work.
with scaled-back capabilities.                                           The investigation, which was conducted by forensic experts in our
                                                                         Computer Crimes Unit, revealed more than 1 million pornographic
NOAA and Department officials have provided a detailed action            images of children on his home and office computers. A search of
plan to address the management and contract weaknesses we                his residence also uncovered evidence that he also was involved
identified. We also have identified the development and acquisition      in the production of child pornography.
of environmental satellites as a top management challenge for the
Department and plan to monitor both NPOESS and the Geostation            The suspect fled the United States after his December 21, 2005,
ary Operational Environmental Satellite (GOES) program for as            indictment and was featured on the television show America’s Most
long as necessary to ensure the billions spent provide value to the      Wanted in January 2006. A few days after the program aired, he
government and the nation.                                               turned himself in to U.S. officials in Rome, Italy. He was sentenced
                                                                         on August 30, 2006, to 15 years in prison, followed by 3 years
Prevention Is the Foundation of Our Work                                 of supervised release, and ordered to pay restitution to a victim
                                                                         identified during our investigation.
Prevention is the lynchpin of my philosophy as Commerce’s In
spector General. A sustained effort to prevent problems whenever         This disturbing case is now complete and the perpetrator incarcer
opportunity presents itself, to nip in the bud the worrisome things      ated. But we are challenged to find ways to prevent such things,
that could become major resource drains, and to offer wise counsel       as well as go after any new instances of wrongdoing as they come
when a program seems to work but is hampered by strings of small         to light.
inefficiencies that add up to overall ineffectiveness all characterize
the outstanding work our office has consistently performed.              Collaboration Is Key to Future Success

Prevention is the underlying reason for much of what we do and           And finally, I am encouraged by the active role Secretary Gutierrez
what the IG Act expects us to do. It is the reason we spend so much      and Deputy Secretary Sampson have taken to improve the overall
staff time working with recipients of Commerce grants to make            management of the Department. Not only have they promulgated
sure they understand the importance of using the funds properly.         a set of priority issues requiring the Department’s sustained at
And prevention is the reason we hold many one-on-one and, often,         tention, several of which complement our list of management
informal—but most effective—meetings with Commerce manag                 challenges, they also have stressed their desire that their manage
ers and stakeholders, who understand very well the old saying,           ment team should actively collaborate with us to address areas of
“An ounce of prevention is worth a pound of cure.”                       mutual concern.

Prevention by Deterrence                                                 I look forward to deepening our working relationship with Secre
                                                                         tary Gutierrez, Deputy Secretary Sampson, Congress, and senior
Prevention also serves as the motivation for our dedicated investi       Department officials as we take on the important challenges
gators who have to dig deep into the uglier side of human activity       facing Commerce. Meeting the goals of the Inspector General
on occasion in the hope that shutting down one bad guy would             Act requires that we act only in sincere partnership to provide
serve as a warning to any others who might be tempted to betray          the American people the highest quality and highest functioning
the trust of their government position. It is not with pleasure, but     government possible. Working together, I am confident that we
a grim satisfaction, that I must note that Commerce OIG investi          can achieve that goal.
gators’ dogged pursuit of one case drew national media attention




                                                                                   U.S. Department of Commerce/Office of Inspector General
Major Challenges for the Department



This section highlights OIG’s Top 10 Management Challenges
that faced the Department at the close of this semiannual period.               Top 10 Management Challenges
Each challenge meets one or more of the following criteria: (1) it is        .	 Strengthen Department-wide information security.
important to the Department’s mission or the nation’s well-being,            .	 Effectively manage departmental and bureau acquisi­
(2) it is complex, (3) it involves sizable resources or expenditures,            tion processes.
or (4) it requires significant management improvements. Because
                                                                             .	 Strengthen internal controls over financial, program­

of the diverse nature of Commerce activities, these criteria some
                                                                                 matic, and business processes.

times cut across bureau and program lines. Experience has shown
that by aggressively addressing these challenges, the Department             4.	 Ensure that uSpto uses its authorities and flexibilities
can enhance program efficiency and effectiveness; eliminate seri                 as a performance-based organization to achieve better
                                                                                 results.
ous operational problems; decrease fraud, waste, and abuse; and
achieve substantial savings.                                                 5.	 Control the cost and improve the accuracy of the de­

                                                                                 cennial census.

                                                                             6.	 Effectively manage the development and acquisition of
                                                                                 environmental satellites.
Challenge 1
                                                                             7.	 promote fair competition in international trade.
Strengthen Department-Wide                                                   8.	 Effectively manage noaa’s ocean and living marine

                                                                                 resources stewardship.

Information Security
                                                                             9.	 aggressively monitor emergency preparedness, safety,
Since enactment of the Federal Information Security Management                   and security responsibilities.
Act (FISMA), government agencies have devoted significant re                0. Enhance export controls for dual-use commodities.
sources to improving the security of information stored on their
computer systems. The problem is long standing: GAO has iden
tified information security as a government-wide high-risk issue
every year since 1997. At Commerce, it is the No. 1 challenge and       for completing improved C&A packages, which recognized that the
has been a material weakness since 2001.                                amount of time necessary to complete the C&A process correctly
                                                                        had been continually underestimated. When revised schedules were
To eliminate the material weakness, Commerce has emphasized             finalized in June 2006, the Department’s Office of the CIO (OCIO)
improving its certification and accreditation (C&A) process for         expected a total of 28 C&A packages to be completed by the end
IT systems. In February 2005, the chief information officer (CIO)       of July, 27 of which were for high- or moderate- impact systems.1
issued a plan to produce acceptable quality C&A packages for all        OCIO reviewed completed packages and worked with the bureaus
national-critical systems and some mission-critical systems by the      to address concerns, as necessary. If OCIO determined a package
end of FY 2005 and for all other systems by the end of FY 2006.         was of sufficient quality, it was forwarded to OIG for FISMA
In light of that plan, our approach to the C&A portion of our 2005      review. As of August 24, 2006, our agreed-upon cutoff date, the
FISMA evaluation was to review all improved packages available          CIO’s office had received packages for 22 high- and moderate-
by August 31, 2005. Only five were ready—three from NOAA                impact systems, 12 of which were forwarded to us. We evaluated
and two from Census. Those packages showed some noteworthy              a total of 15 C&A packages for FY 2006 FISMA reporting. Eleven
improvements. However, with such a low number of packages               of these packages were Commerce-owned systems that had gone
available for review and considering the deficiencies we found, we      through the improvement process, and 4 were high- and moderate
concluded that the Department’s C&A process had not improved
to the point where authorizing officials had sufficient details about
remaining system vulnerabilities to make fully informed accredita
                                                                        1
                                                                          Commerce systems were previously categorized as national critical, mission
                                                                        critical, or business essential. With the publication of NIST Federal Information
tion decisions, and the IT security material weakness remained.         Processing Standard 199, Standards for Security Categorization of Federal Infor
                                                                        mation and Information Systems, agencies must now categorize information and
In early FY 2006, the acting CIO worked with the operating units        information systems as low, moderate, or high impact, based on the potential con
to reassess the schedule and give units more latitude on time frames    sequences to organizations and individuals should there be a breach of security.




September 2006/Semiannual Report to Congress	                                                                                                        
Major Challenges for the Department




                                                                         Our review included two draft C&A packages for USPTO contrac
                                                                         tor systems, which we found to be of poor quality. Therefore, we
                                                                         also recommended that USPTO, which submits its performance
                                                                         and accountability report separately, report IT security as a mate
                                                                         rial weakness.

                                                                         Protection of Sensitive
                                                                         Agency Information

                                                                         After a recent series of incidents throughout the federal government
                                                                         involving the compromise or loss of sensitive personal information,
                                                                         the Office of Management and Budget (OMB) issued Memoran
                                                                         dum M-06-16 on June 23, 2006. The memorandum emphasized the
                                                                         need to protect personally identifiable information that is remotely
                                                                         accessed or physically removed from an agency location, required
                                                                         agencies to ensure that appropriate safeguards were in place within
                                                                         45 days, and asked inspectors general to conduct reviews.

                                                                         OMB defines personally identifiable information as “any informa
                                                                         tion about an individual maintained by an agency, including, but
                                                                         not limited to, education, financial transactions, medical history,
                                                                         and criminal or employment history and information which can be
                                                                         used to distinguish or trace an individual’s identity, such as their
                                                                         name, social security number, date and place of birth, mother’s
                                                                         maiden name, biometric records, etc., including any other personal
                                                                         information which is linked or linkable to an individual.”2
Source: http://csrc.nist.gov/policies/WhatAgencycandonow-OMB-memo.pdf
                                                                         OMB’s memorandum included a checklist prepared by NIST for
                                                                         protection of remote information and recommended four additional
impact contractor systems that had not. (FISMA requires OIGs to          actions: (1) encrypting all sensitive agency data on mobile com
review contractor systems.)                                              puters/devices, (2) allowing remote access only with two-factor
                                                                         authentication,3 (3) using a “time-out” function for remote access
We found a larger percentage of C&A packages met the require             and mobile devices requiring user reauthentication after 30 minutes
ments of Commerce’s IT security policy and applicable National           of inactivity, and (4) logging all computer-readable data extracts
Institute of Standards and Technology (NIST) standards and               from databases holding sensitive information and verifying such
guidance (33 percent) as compared to last year (13 percent). But         extracts have been erased within 90 days if no longer needed.
progress has been slow. Overall, we found that security plans and
risk assessments have continued to improve. Security plans have          The President’s Council on Integrity and Efficiency (PCIE) pre
shown particular improvement in the identification of network            pared a review guide for inspectors general and was to provide a
components. To be consistent with NIST standards and guidance            government-wide report to OMB in October based on input from
and better support selection and tailoring of security controls, risk    IG reviews of their agencies.4 To evaluate Commerce, we selected
assessments now need to focus on specific threats and vulnerabili        a sample of 10 systems. This represents 16 percent of all systems
ties for a given system instead of considering all possible risks.       identified by Commerce bureaus as storing or processing person

We also found significant improvement in testing of the five sys
tems we reported as certified and accredited, as well as in testing
                                                                         2
                                                                           OMB Memorandum M-06-19, Reporting Incidents Involving Personally Identifi
                                                                         able Information and Incorporating the Cost for Security in Agency Information
of a system granted interim authorization to operate. However, the       Technology Investments, July 14, 2006.
remaining nine systems had serious deficiencies in the assessment        3
                                                                           Two-factor authentication is achieved by authenticating two of the following three
of security controls, particularly in the testing of operational and     factors: 1) “something you know” (e.g. a password), 2) “something you have” (i.e.
technical controls needed to determine whether the security controls     in your possession at the time of the authentication), or 3) “something you are”
for network components are in place and operating as intended. That      (e.g., a biometric such as your fingerprint)
                                                                         4
                                                                           The PCIE was established by Executive Order 12805, May 11, 1992, to address
being the case, neither the certification agent nor the authorizing of   integrity, economy, and effectiveness issues that transcend individual government
ficial had adequate information on the remaining vulnerabilities, and    agencies, and increase the professionalism and effectiveness of IG personnel
we again found this to be a material weakness within Commerce.           throughout the government.




                                                                                      U.S. Department of Commerce/Office of Inspector General
                                                                                                       Major Challenges for the Department




ally identifiable information and accessed remotely or physically      control assessments. The security control assessments did not
removed from an agency location. We reviewed the current sys           evaluate many of the system controls and were conducted without
tem security plan and all test results verifying that the applicable   adequate test procedures. Consequently, NOAA’s certification
controls are in place for each of these systems.                       process did not provide sufficient information to authorizing of
                                                                       ficials on remaining system vulnerabilities.
Because of the short time available to perform our work (results
were due to PCIE on September 22), our review was limited              In its response, NOAA stated that it had completed C&A activities
in scope, relying primarily on a comprehensive examination of          for POES and SARSAT nearly 14 months ago, had made immedi
security control test results provided by the operating units. Our     ate changes to its C&A process after our December 2005 exit con
FISMA work plan for FY 2007 includes actual testing of applicable      ference, and has implemented most of the changes recommended
security controls.                                                     in our report. However, as we noted in our report, we prepared
                                                                       the report because some of the problems we identified in our FY
We found that in most cases bureaus could not demonstrate that the     2005 and previous reviews were still evident in the additional five
necessary steps have been taken to ensure that personally identifi     NOAA C&A packages we reviewed early in FY 2006. We hope
able information is adequately safeguarded. None of the system         that documenting our concerns in this report and making formal
documentation reviewed indicated that personally identifiable          recommendations for improvement will facilitate complete cor
information was stored or processed, a step needed to determine        rection of these issues, many of which have persisted for some
the required safeguards. The Department’s IT security policy           time. (See page 33.)
does not explicitly address the protection needs associated with
personally identifiable information that is accessed remotely or       NOAA E-Authentication
physically removed. The Department’s OCIO has indicated that
a revised policy addressing personally identifiable information        E-authentication is the process of electronically verifying the
requirements will be available during FY 2007. Most of the sys         identities of users accessing government services over the Internet
tems we reviewed showed no evidence that required protections          and is crucial to the Department’s ability to properly authorize
for personally identifiable information transported and stored         access to data and hold users accountable for their actions. We
offsite, such as encryption, are implemented. There also was no        evaluated the quality of NOAA’s e-authentication risk assessment
evidence that protections are in place for remote access of person     and controls for SARSAT—the U.S. portion of an international
ally identifiable information, such as virtual private networks or     program that uses satellites to coordinate search and rescue activi
controls on downloading and storage of such data.                      ties. These controls, implemented for two SARSAT web-based
                                                                       applications, provide a first line of defense for beacon registration
To address the loss of sensitive personal information from laptop      data that is protected under the Privacy Act. According to NOAA’s
computers and related equipment at the Census Bureau, the Secre        e-authentication risk assessment, one consequence of unauthor
tary of Commerce asked OIG to determine the extent of problems         ized use of the SARSAT beacon registration system is that search
in protecting sensitive personal information at Census, including      and rescue personnel could waste valuable time using incorrect
whether property management policies and practices are adequate        or misleading data.
in light of the bureau’s unique workforce and mission. We plan to
report on the results of our evaluation in the next semiannual.        The objectives of our review were to determine if the risk assess
                                                                       ment adequately identified the requirements for e-authentication
NOAA C&A                                                               controls and whether the controls had been implemented and prop
                                                                       erly certified prior to the system’s accreditation. Our evaluation
In this semiannual period, we reported on findings from our FY         found that SARSAT’s e-authentication controls do not provide ad
2005 review of three NOAA C&A packages: the Search and Rescue          equate assurance of users’identities and recommended that NOAA
Satellite-Aided Tracking system (SARSAT), the Polar Operational        redo the e-authentication risk assessment to better characterize
Environmental Satellite Ground System (POES), and the Office           and assess authentication risk, improve the system security plan
of Response and Restoration Seattle Local Area Network (Seattle        to identify e-authentication requirements and appropriate controls,
LAN). Each of these systems was certified by NOAA personnel            test controls, and take actions to correct deficiencies.
and accredited by a senior NOAA official as part of NOAA’s C&A
improvement effort.                                                    NOAA disagreed with our conclusion that SARSAT’s e-authentica
                                                                       tion controls do not provide adequate assurance of users’identities,
Our report focused on two problem areas: incomplete system             but agreed with all but one of our recommendations. After we
descriptions and inadequate security control assessments. In           clarified the meaning of that recommendation—to document any
sufficiently complete system descriptions can yield inadequate         deficiencies identified as a result of performing e-authentication
identification and examination of system components in security        control testing—NOAA agreed with it as well. (See page 31.)




September 2006/Semiannual Report to Congress                                                                                             5
Major Challenges for the Department




IT Security Clauses in Contracts                                         For example, the Census Bureau’s contracting for products and
                                                                         services to support 2010 decennial operations continues to bear
We conducted an evaluation to determine whether NOAA is in               watching. The bureau estimates that 17 percent ($1.9 billion) of its
corporating the two information security clauses prescribed by the       2010 budget will be spent on contracts for information technology
Department into contracts and to evaluate implementation of the          systems, advertising, and leases for local office space. One key
clause requirements. Clause 73 requires contractors to comply with       IT program—Field Data Collection Automation (FDCA)—will
the Department’s IT security policy and have their IT resources          develop the handheld mobile computers that field staff will use
certified and accredited if they connect to a Commerce network           to collect 2010 decennial information. This is a critical piece of
or process or store government information. Clause 74 requires           the bureau’s reengineered strategy. Census originally planned to
contractor personnel to undergo appropriate background screening         develop this equipment in-house but determined in early 2004
and IT security awareness training.                                      that it lacked the management and technical resources to do so,
                                                                         and on March 31, 2006, awarded a system development contract.
We reviewed a judgmental sample of 16 NOAA service contracts             However, the late decision to use a contractor and the initial slow
and interviewed managers and staff from NOAA’s Office of                 pace in planning the acquisition shortened the amount of time
Acquisition and Grants, Office of the Chief Information Officer,         available for awarding the contract and developing FDCA. This
and line offices. Because some problematic aspects of Clause 73          will delay address canvassing, the first major field operation of
contributed to issues we identified at NOAA and in a previous re         the dress rehearsal for the 2010 census.
view at USPTO, we also made recommendations to Departmental
officials. Our report highlighted the need to clarify the require
ment to include Clause 73 in all contracts in which contractor IT
resources are either connected to a government trusted network or        Challenge 3
are allowed privileged access to government information. For the
Department, the evaluation identified needed improvements to the         Strengthen Internal Controls
IT security clause and the Commerce Acquisition Manual as well           Over Financial, Programmatic,
as the need for developing additional guidance to aid contracting
officers and contracting officer representatives in their oversight of   and Business Processes
contractor information security. For NOAA we identified improve
ments needed for ensuring the certification and accreditation, as        Internal controls are the steps agencies take to make sure their
appropriate, of contractor IT resources.                                 operations are effective, efficient, and in compliance with laws
                                                                         and regulations. Internal controls also ensure that financial re
Both the Department and NOAA agreed with our recommenda                  porting is reliable, and assets are safeguarded from waste, loss,
tions. On September 27, 2006, in response to our recommenda              or misappropriation, according to the Office of Management and
tions, the Department’s director of acquisition management and           Budget (OMB). Two documents, the Federal Managers’ Financial
procurement executive issued a procurement memorandum and                Integrity Act (FMFIA) and the 2004 revision of OMB Circular
Commerce Acquisition Manual notice with revisions to the clause          A-123 (Management’s Responsibility for Internal Control), set out
and changes to the approach to determine the level of contract risk      internal control requirements for the federal government: Com
so that personnel receive background investigations commensurate         merce and all federal agencies must define and document major
with the risk level. (See page 35.)                                      financial internal control processes and test key financial controls
                                                                         to determine whether they are effective as of June 30, 2006.

                                                                         Although we noted recent improvement in the Department’s
                                                                         management and financial accountability as well as in program
Challenge 2                                                              and operational effectiveness, our audits continually indicate more
                                                                         work is needed to strengthen internal controls over programs,
Effectively Manage                                                       operations, and administrative areas.
Departmental and Bureau
Acquisition Processes                                                    We expect the new federal emphasis on strong internal controls to
                                                                         create a number of new demands for OIG reviews in the coming
Commerce spends nearly $2 billion annually on goods and ser              years. For example, the Digital Television Transition and Public
vices—roughly a third of its annual appropriation—and each year          Safety Act of 2005 puts NTIA, one of the Department’s smaller
relies more on contractors to support its mission-critical work.         agencies, in a position of having to manage an enormous national
Adequate oversight of acquisition planning and execution is es           project with an even larger budget than had been anticipated. Suc
sential to ensuring that taxpayers dollars are spent effectively and     cessfully implementing this act will constitute a significant manage
efficiently and procurement laws and regulations are followed.           ment challenge for the Department. We will share lessons learned




6                                                                                   U.S. Department of Commerce/Office of Inspector General
                                                                                                      Major Challenges for the Department




from our work in other areas to help the agency design strong,        Challenge 5
well-structured programs and minimize opportunities for fraud.
                                                                      Control the Cost and Improve
                                                                      the Accuracy of the Decennial
Challenge 4                                                           Census
                                                                      Even after adjusting for inflation, the 2010 census will be the
Ensure that USPTO Uses Its                                            country’s most expensive decennial ever—estimated to cost
Authorities and Flexibilities                                         $11.3 billion. The Census Bureau’s redesigned decennial plan,
as a Performance-Based                                                established after the 2000 Census, is heavily dependent on auto
Organization to Achieve                                               mating critical field operations to accurately count the nation’s
                                                                      population within budget. The bureau has established a rigorous
Better Results                                                        testing schedule to monitor development and implementation of
                                                                      the strategy, identify problems, and incorporate solutions in time
Since March 2000 when the Patent and Trademark Office Efficiency
                                                                      for the decennial.
Act transformed USPTO into a performance-based organization de
signed to operate more like a private corporation than a government
                                                                      During the last 6 months, we built on the work we did in 2005 and
agency, OIG has paid close attention to a number of aspects of the
                                                                      early 2006, which reviewed the 2006 test’s address canvassing
organization’s internal management structures and practices.
                                                                      operation. This semiannual report details our review of Census’s
                                                                      test to enumerate the group quarters population (see page 21).
USPTO faces numerous challenges, such as a continuing increase in
applications, training about 1,000 newly hired examiners in Patents
                                                                      Although most U.S. residents live in residential housing units such
and Trademarks, and transitioning to an electronic processing envi
                                                                      as single-family houses, apartments, and mobile homes, more than
ronment. In addition, USPTO’s expanded authority over personnel
                                                                      7 million people live in situations such as college dormitories,
decisions and processes, procurement, and information technology
                                                                      nursing homes, prisons, and group homes, collectively known as
operations needs to be effectively and efficiently utilized.
                                                                      group quarters. We reviewed the group quarters testing operation
                                                                      at the Census Bureau’s test site in Travis County, Texas. The area
OIG has issued nearly a dozen reports examining problems at
                                                                      is ideal for testing the group quarters operation because it is home
USPTO since 2001. The bureau has generally taken decisive ac
                                                                      to four universities and colleges, a state prison, and numerous other
tion to address some problems we identified in the past, and we
                                                                      group living facilities.
have been pleased that USPTO has been receptive to our recom
mendations. But ultimately, we believe that many of the problems
USPTO suffers are serious and require the sustained commitment        New Methods, New Challenges
of senior managers to resolve. OIG will continue to monitor the
bureau’s progress.                                                    Our review found that although the bureau is working on new meth
                                                                      ods to better enumerate the group quarters population, it continues
                                                                      to face a number of challenges. For example, nontraditional student
                                                                      housing, such as private dorms and student cooperative housing, did
                                                                      not easily fit into any of Census’s group quarters definitions. Some
                                                                      times these units were defined as private residences and received
                                                                      housing unit questionnaires. In those cases, there was an increased
                                                                      likelihood that the unresponsive students had already moved out of
                                                                      their residence before the follow-up operation. When this occurred,
                                                                      enumerators relied on records kept in administrative offices, which
                                                                      often lacked Hispanic origin and race information. We also found
                                                                      that 42 percent of the validation workload was associated with large
                                                                      apartment complexes erroneously identified as potential group quar
                                                                      ters during address canvassing. This caused problems in the group
                                                                      quarters validation and the nonresponse follow-up operations.

                                                                      One of the objectives of our review was to independently assess
                                                                      the completeness of the group quarters listing prepared for the
A USPTO trademark information specialist assists customers.           Census 2006 test. The bureau used four sources to develop a list
                                                                      of all potential group quarters for the 2006 test, which was then
Source: uSpto




September 2006/Semiannual Report to Congress                                                                                            7
Major Challenges for the Department




                                              Group Quarters Activities in the 2006 Census Test
                                                                                                 Group Quarters
                              Group Quarters                                                                                       Group Quarters
    Operation                                                 Address Canvassing                Validation/Advance
                             List Development                                                                                       Enumeration
                                                                                                        Visit
                        June 004—with updates                     July 005—                    December 005—                     april 006—
       Dates
                      throughout 006 Census test                September 005                    January 006                      May 006
    Description       List created using                    Identified potential              Listers visited ,778         Enumeration of all
                      • 000 group quarters                 “other Living Quarters”           oLQs in austin and 84         identified group quarters
                      • administrative records              (oLQs)                            oLQs on the Cheyenne          facilities
                      • address canvassing (other                                             River Reservation to
                         Living Quarters)                   Ensured addresses were            designate address status
                      • other Census survey work            correct and/or made               as a
                                                            changes to update the             •    GQ
                                                            Master address File               •    Housing unit
                                                                                              •    nonresidential
                                                                                              •    Vacant
                                                                                              •    transient
                                                                                              •    Duplicate
                                                                                              •    other
                                                                                              Group quarters
                                                                                              administrators contacted
                                                                                              regarding upcoming
                                                                                              group quarters
                                                                                              enumeration; privacy
                                                                                              and confidentiality were
                                                                                              discussed

Source: u.S. Census Bureau, 2006 Census Test Project Management Plan, 00 Census Memoranda Series no. 8 (Reissue) December 005



refined by the group quarters validation operation, resulting in a
final list of group quarters to be enumerated. We found a number
of group quarters that were not on the final enumeration list by
conducting a limited Internet search and speaking with admin
istrators. We also found duplicates—addresses that appeared on
both the enumeration and housing unit lists or group quarters that
appeared twice on the enumeration list. These errors can result in
an inaccurate count of the population because individuals living
in group quarters enumerated via the household questionnaire
may be missed and duplicates on the list can result in people be
ing counted twice.

We also found that Census should take additional steps to count
the student population, such as working closely with fraternity
and sorority campus oversight organizations and exploring the
use of the Internet as a response option for this computer-oriented
generation. Finally, we noted that some additional group quarters
processes and procedures warrant management attention.

Looking Ahead

We continue to look at the update/enumerate operation at the                    More than a dozen group quarters—and possibly many more—were not
Cheyenne River Reservation and Off-Reservation Trust Land in                    on the Census Bureau’s enumeration list. This home is one of 15 missing
South Dakota. During this operation, which is used in communities               from the list that we found by conducting a limited Internet search.
where residents are less likely to return a completed questionnaire,            Source: oIG




8                                                                                             U.S. Department of Commerce/Office of Inspector General
                                                                                                             Major Challenges for the Department




enumerators update the address lists and maps and interview a
resident to complete a questionnaire for each housing unit. We
are assessing whether the update/enumerate operation obtained
complete and accurate enumerations, especially with respect to
large households, and if it resulted in improved address lists and
maps. We are also assessing the bureau’s method for designating
which communities require this type of enumeration.




Challenge 6

Effectively Manage the
Development and Acquisition
of Environmental Satellites                                            Source: http://goes.gsfc.nasa.gov/images/GoES-R_Color_Lg.jpg


Over the next 5 years, the Department, through NOAA, will spend        Commerce IG Johnnie E. Frazier reported our findings to the
several billion dollars in contracts for the purchase, construction,   House Science Committee in May (see page 50), as the recertifi
and modernization of environmental satellites.5 These systems,         cation process was in progress. In June, the Committee accepted
operated by NOAA’s National Environmental Satellite, Data and          a triagency proposal to continue the program with the following
Information Service (NESDIS), collect data to provide short- and       changes:6
long-range weather forecasts and a variety of other critical envi
                                                                       •	 Total acquisition costs were revised to $11.5 billion to support
ronmental and climate information.
                                                                          NPOESS satellite coverage through 2026.
Complex, high-cost acquisitions such as these are extremely dif        •	 The number of satellites was reduced from six to four, with the
ficult to manage within cost and schedule goals, as was revealed          U.S. relying on European satellites to fill in any gaps resulting
in our audit during this reporting period of the National Polar-          from the reduction.
orbiting Operational Environmental Satellite System (NPOESS)
                                                                       •	 The first satellite will launch in 2013 rather than 2010, as
(see page 29). This system—a joint project of NOAA, NASA, and
                                                                          proposed in the original program.
Defense—is critical to the nation’s ability to provide continuous
weather and environmental data for civilian and military needs         •	 The number of sensors will drop from seven to five.
through the coming 2 decades. Initially projected to cost $6.5 bil
                                                                       •	 Management reforms, including our recommendations for
lion, the program recently underwent a mandatory congressional
                                                                          improving EXCOM oversight and revising the award fee
review to see if it should be continued, given its troubling history
                                                                          contract, will be implemented.
of huge cost increases and schedule delays.
                                                                       This program will continue to bear close watching as it restructures
Congress Approves a Scaled-Back                                        and attempts to stay within its new cost and schedule goals, and
NPOESS Program                                                         we intend to follow its progress and keep Congress apprised of
                                                                       our findings.
Last November, the Department of Defense reported that NPOESS
costs had grown by 25 percent over original estimates—trig
                                                                       GOES-R Costs, Schedule, and Capabilities
gering the Nunn-McCurdy recertification provision of the FY
                                                                       Are Being Redefined
1982 National Defense Authorization Act. In addition to these
staggering cost increases, the program was running 17 months
                                                                       The GOES-R series is the next generation of geostationary satel
behind schedule yet the contractor had received $123 million in
                                                                       lites that will replace existing GOES satellites in the next decade.
incentive payments.
                                                                       The new series will have enhanced sensing capabilities that are
                                                                       expected to offer an uninterrupted flow of high-quality data to
We sought to determine how cost and schedule overruns had grown
                                                                       support weather forecasting, severe storm detection, and climate
so dramatically while the contractor had been so well rewarded.
                                                                       research vital to public safety. GOES-R is a multicontract, mul
We identified serious shortcomings in the contract’s incentive
structure as well as in program oversight from NPOESS’ execu
tive committee, which consists of top leadership from NOAA,            5
                                                                           http://www.osec.doc.gov/bmi/Budget/05APPR/PAR05.pdf, page 210
NASA, and Defense.                                                     6
                                                                           http://www.house.gov/science/hearings/full06/June%208/charter.pdf




September 2006/Semiannual Report to Congress                                                                                                   9
Major Challenges for the Department




tiyear program wholly funded by Commerce, though the new                will use to leverage NASA’s oversight expertise. We will also
satellites will be developed and acquired with help from NASA.          consider whether program staff report significant issues to senior
The Department’s investment for GOES-R for fiscal years 2006            Department and NOAA oversight officials in a timely fashion and
to 2010 is projected at about $2 billion.                               whether those officials take appropriate action.

Planning for the new series, which has been under way for the           Our acquisition focus will be on the program office’s overall ap
past 5 years, has given long and careful focus to the many risks        proach to procuring key satellite instruments, identifying potential
inherent in developing satellite programs. Even so, the NPOESS          risks, and implementing associated mitigation strategies. We will
experience has put new pressure on agency senior officials and          also assess the acquisition contracts’ award fee plans to determine
program planners to have strong mechanisms in place for tracking        whether they are structured to promote excellent performance.
every phase of the program and promptly mitigating problems
that arise.                                                             NASA OIG plans to determine whether NASA program manage
                                                                        ment councils effectively identify and review program issues and
During this semiannual period, we initiated a joint review of the       progress, and whether procedures and processes are in place to
GOES-R program with NASA’s Office of Inspector General. Our             recognize, mitigate, and report technical risks in accordance with
shared objective is to determine whether the Department and             NASA policy.
NASA have created a management structure to ensure effective
oversight of the many risks associated with the GOES-R program.
In preparing for the review, we learned that the Department,
NOAA, and NASA are restructuring major aspects of the program           Challenge 7
as part of detailed risk reduction activities. GOES-R leadership is
reassessing planned satellite capabilities and the timing of launches   Promote Fair Competition in
in response to input on costs and technological risks provided by       International Trade
an independent review team and contractors involved in defining
the program’s major aspects. In addition, program officials are         The Department of Commerce accomplishes its goals of promoting
considering changing approaches to managing the program and             trade, opening overseas markets to American firms, and protecting
acquiring the satellites.                                               U.S. industry from unfair competition by imports primarily through
                                                                        the work of the International Trade Administration (ITA). ITA
At Commerce, the oversight component of our work will look at the       also works with USPTO and NIST to assist U.S. companies with
Department and NOAA’s efforts to establish effective monitoring         intellectual property rights and standards. Over the past several
organizations, policies, and procedures and the mechanisms NOAA         years, OIG has focused a number of reviews on the Department’s




Source: u.S. Census Bureau




0                                                                                 U.S. Department of Commerce/Office of Inspector General
                                                                                                       Major Challenges for the Department




efforts to increase U.S. market opportunities, provide assistance      Challenge 8
to U.S. exporters, and overcome trade barriers in difficult foreign
markets.                                                               Effectively Manage NOAA’S
In September 2006, in response to OIG recommendations made to
                                                                       Stewardship of Ocean and
ITA in several recent reports, the bureau’s Commercial Service (CS)    Living Marine Resources
announced extensive changes in its procedures for verifying export
success claims, its primary performance measure. CS stated that the    The National Oceanic and Atmospheric Administration is charged
new procedures were necessary because, in a significant number of      with monitoring the health of our nation’s ocean, coastal, and
cases, OIG had found discrepancies in the reported export successes.   Great Lakes resources; administering civilian ocean programs;
These discrepancies raised doubts about the integrity of the data      and protecting and preserving the nation’s living marine resources
CS reports to Congress and the administration on its accomplish        through scientific research, fisheries management, enforcement,
ments. The new CS procedures require improved documentation,           and habitat conservation.
supervisory confirmation of a sample of export success reports, and
verification that CS provided value-added assistance.                  During the past year, we followed up on our audit of the National
                                                                       Marine Fisheries Service’s (NMFS’) preparation of a biological
In response to a request from the House Small Business Com             opinion for California’s Central Valley Project, one of the nation’s
mittee, we are reviewing coordination and information sharing          major water conservation efforts. In response to our audit recom
between Commerce and other U.S. government agencies with               mendations, NOAA received three reviews of the opinion. One
responsibility for trade promotion. The review, which we will          review concluded that NMFS used the best scientific information
discuss in our next semiannual report, will assess Commerce’s          for the biological opinion, but two reviews concluded that NMFS
efforts to match export opportunities with export-ready companies,     did not. In light of these findings, we asked NOAA officials to
with a focus on trade promotion agencies’ use of the Internet to       submit to us a plan that identifies actions they will take to address
communicate leads and other relevant trade information.                the deficiencies and implement the related recommendations made
                                                                       by the independent review organizations.
U.S. Trade Promotion in South America                                  NOAA’s future challenges include its efforts as a steward of marine
                                                                       resources, the agency’s consultation process, and its management
During this semiannual period, we conducted on-site inspections
                                                                       of fisheries and marine mammals.
of CS posts in Brazil, Argentina, and Uruguay. Significant export
opportunities are opening in these countries as Brazil’s large
economy continues its steady growth, Argentina recovers from
its 2001-2002 economic crisis, and Uruguay pursues closer trade        Challenge 9
relations with the United States. Our inspections focused on the
management, program operations, and financial and administra           Aggressively Monitor
tive practices of these three South American posts. We issued our
report on CS’ operations in Argentina and Uruguay in September
                                                                       Emergency Preparedness,
with 20 recommendations, and we will publish our report on CS’         Safety, and Security
larger post in Brazil before the end of the calendar year.             Responsibilities
Our review of CS Argentina and CS Uruguay found that the posts         The Department of Commerce has a dual responsibility in the
are providing useful export assistance to U.S. companies and have      area of emergency preparedness, safety, and security; not only
established collaborative relationships with key U.S. government       must it be ready to protect 35,000+ employees and hundreds of
offices and nongovernmental organizations both in those countries      facilities, but because several Commerce programs are critical to
and in the United States. Our review found effective administrative    national preparedness and recovery efforts, it must support U.S.
management practices at both posts, but we also identified some        efforts to prepare for, respond to, and promote recovery from
financial management and accounting concerns that warrant the          major disasters.
attention of Commerce managers (see page 25).
                                                                       We continue to monitor Commerce’s progress in resolving de
                                                                       partmental emergency preparedness and security weaknesses we
                                                                       identified in assessments conducted in 2002 and 2005. Although
                                                                       Commerce has made significant improvement in emergency
                                                                       preparedness to address some of the vulnerabilities, we found,




September 2006/Semiannual Report to Congress                                                                                           
Major Challenges for the Department




                                                                      Challenge 10

                                                                      Enhance Export Controls for
                                                                      Dual-Use Commodities
                                                                      The Department’s Bureau of Industry and Security (BIS) oversees
                                                                      the federal government’s export licensing system for dual-use
                                                                      commodities and technology and is charged with advancing U.S.
                                                                      national economic security interests by administering and enforc
                                                                      ing export controls. The primary goal of the licensing and enforce
                                                                      ment system is to prevent hostile nations and terrorist groups from
                                                                      acquiring sensitive technologies and materials that have both
                                                                      civilian and military applications by controlling their export.

                                                                      The National Defense Authorization Act (NDAA) for Fiscal
                                                                      Year 2000, as amended, directed the inspectors general of the
                                                                      departments of Commerce, Defense, Energy, and State, in con
                                                                      sultation with the directors of Central Intelligence7 and the FBI,
                                                                      to report to Congress by March 30, 2000, and annually until the
                                                                      year 2007, on the adequacy of export controls and counterintel
                                                                      ligence measures to prevent the acquisition of sensitive U.S.
                                                                      technology and technical information by countries and entities
                                                                      of concern. (The Office of Inspector General at the Department
                                                                      of Homeland Security also has participated since its establish
                                                                      ment in 2003.) In addition, the NDAA for FY 2001 requires
                                                                      the IGs to discuss in their annual interagency report the status
                                                                      or disposition of recommendations made in prior-year reports
                                                                      submitted under the act.
Source: OIG



among other things, the need for better departmental guidance
and oversight of emergency programs, risk assessments, occupant                Some Export Control Topics Covered
emergency plans, and security forces at its domestic operations, as               by Interagency OIG Reviews
well as better oversight of security upgrades and greater attention
to security at its overseas offices.                                      Federal automated export licensing systems

More recently, in our review of the Commerce workers’compensa             Commerce Control List and U.S. Munitions List
tion program, we recommended that the Department consolidate
                                                                          Deemed exports
and analyze bureau safety data to help officials and managers
identify and correct problems. We also recommended the Depart             Export enforcement
ment use this data to find ways to help prevent workplace injuries
and lower the number of employees who file claims for workers’            Export licensing process for chemical and biological
compensation benefits.                                                    agents

Finally, we are working with other PCIE members to publish                U.S. dual-use export controls for China
a guide for evaluating emergency preparedness programs. The
                                                                          U.S. dual-use export controls for India (Commerce
guide should be a useful tool for conducting future OIG or man
                                                                          only)
agement reviews of emergency preparedness in Commerce and
other federal agencies.

                                                                      7
                                                                        The Intelligence Reform and Terror Prevention Act of 2004 [Public Law 108
                                                                      458], dated December 17, 2004, established the Director of National Intelligence
                                                                      to serve as the head of the U.S. intelligence community.




12                                                                                 U.S. Department of Commerce/Office of Inspector General
                                                                                                           Major Challenges for the Department




We have initiated our eighth and final NDAA required review,
this time looking at the effectiveness of U.S. controls on dual-use
exports to India. India presents unique challenges to U.S. com
mercial interests and export control policy. As one of the fastest
growing economies in the world, India offers expanding trade
opportunities for U.S. exporters but also increased competition
for U.S. industry and labor.

We will detail the findings of our India evaluation in our March
2007 semiannual report. And though this will conclude our statu
tory reporting requirements under NDAA, we will continue to
monitor BIS’ efforts to implement and enforce dual-use export
controls, given the importance of this mission to the nation’s
security. We will also follow up on our previous NDAA recom
mendations and report on BIS’ progress in implementing them in
our next semiannual report.

                                                                      These nuclear reactors are among 16 in operation throughout India, and the
                                                                      country has plans to build 6 more over the next 2 years. Under the terms
                                                                      of a July 2006 agreement, the United States will give India greater access
                                                                      to dual-use technology to expand its civilian nuclear program and meet its
                                                                      burgeoning energy needs.
                                                                      Source: http://as.wn.com/i/d5/8c93997c11de00.jpg and
                                                                      http://www.icjt.org/npp/podrobnosti.php?drzava=11&lokacija=718




September 2006/Semiannual Report to Congress                                                                                              13
                                   Economic Development
                                   Administration


                             Chicago Area Nonprofit Managing
                               RLF Grant Poorly


T
        he Economic Devel-                   In September 1995, the Economic Development Administration awarded a $500,000 long-term
        opment Administration                   economic deterioration assistance grant to a nonprofit community development corpora-
        was established by the Public             tion in Chicago to remedy actual or threatened economic dislocation in the city and six
Works and Economic Development                       surrounding suburbs. The grant allocated $450,000 for a revolving loan fund (RLF)
Act (PWEDA) of 1965 to generate new                    and $50,000 for salaries and other expenses. It required $150,000 in matching funds
jobs, help retain existing jobs, and stimulate           from the recipient.
private investment in economically distressed
regions of the United States. EDA continues                 In August 2001, EDA awarded the organization a second grant for $787,500,
to fulfill this mission under the authority of               allocating $750,000 for the RLF, $37,500 for salaries and expenses, and requir-
PWEDA, as amended by the Economic Develop-                    ing $787,500 in matching share for similar purposes.
ment Reauthorization Act of 2004. Based on local
and regional comprehensive economic development                We audited the two grants, which were combined for reporting purposes,
strategies, EDA works in partnership with state and            for the 10-year period covering September 1995 through December 2005
local governments, regional economic development                to assess the financial management of the RLF, verify the allowability of
districts, public and private nonprofit organizations,          administrative costs, and determine whether the grantee complied with ap-
and Indian tribes to help distressed communities ad-           plicable laws and regulations.
dress problems associated with long-term economic
deterioration and sudden and severe economic                   What We Found
dislocations, including recovery from the economic
impact of natural disasters, the closure of military         Our audit disclosed the community development corporation is not managing
installations and other federal facilities, changes         the RLF effectively. At the end of December 2005, the organization had not
in trade patterns, and the depletion of natural            met the 75 percent capitalization standard required by EDA regulations and had
resources. EDA provides eligible recipients               $419,655 in excess cash. It also had $199,432 in undisbursed grant funds.
with technical assistance, as well as grants
for public works, planning, training and              The RLF had six active loans with a total outstanding principal balance of $446,251
research, and economic adjustment as-               and funds available for new loans of $708,290. Our audit showed the group had $199,432
sistance.                                         of undisbursed grant funds as of December 31, 2005. In the 10-year history of the RLF,
                                             the group had made only 12 loans, but it stated in its RLF plan that it expected to make 49
                                          loans in the first 5 years of the RLF. At the time of our audit, the organization had not made
                                       an RLF loan since April 2003.

                             The organization made only one loan ($112,000 EDA portion) within the first 3 years of the financial as-
                       sistance award, when all $450,000 of EDA loan funding should have been disbursed. The community develop-
              ment corporation’s officials said the original award was based on financing manufacturing businesses on the west side
of Chicago, which declined precipitously in the mid-to-late 1990s. The surviving firms were averse to taking on more debt. In 2001,
the corporation began lending to businesses outside the manufacturing sector, but although it broadened its lending base, it still has a
large balance of remaining grant funds.




September 2006/Semiannual Report to Congress	                                                                                         15
Economic Development Administration



Unallowable interest Expense                                             three california Audits
The group’s management said it accrued $142,018 in interest              show mixed results
expense from a secondary low-interest loan from the Ford Foun
dation, which was used to provide part of its required nonfederal        During this semiannual period, the Office of Audits reviewed EDA
matching share. OMB regulations do not allow interest expense            grants in three California localities suffering from economic stress.
to be charged to an RLF.                                                 Although all three grantees completed their public works construc
                                                                         tion projects satisfactorily, none had made significant progress
As of December 31, 2005, EDA award disbursements exceeded                toward expected long-term economic development.
EDA’s portion of loans made by $29,567. From September 1995
through December 2005, EDA made eight RLF disbursements to               Audit Finds california Business
the organization totaling $1,000,567. During that period, the group      park Grantee complied with terms
made 12 loans totaling $1,639,000 (including refinancing of some
of the loans). The EDA portion of the 12 loans totaled $971,000,         In early 2000, EDA awarded a California city a $3.8 million public
and the organization’s matching portion of the 12 loans totaled          works grant under Title II of the Public Works and Economic De
$668,000. According to EDA RLF standard terms and conditions,            velopment Act to fund infrastructure at a research and technology
an RLF grant recipient must request disbursements from EDA only          business park. The award period extended from February 2000 to
at the time and in the amount immediately needed to close a loan         January 31, 2004. The federal share was $2,794,000, and the local
or disburse funds to a borrower.                                         match was $1 million.

inaccurate reports                                                       The city is located in central Fresno County and agriculture is the
                                                                         dominant element in the local economy. Fresno County had the
We found a number of discrepancies in the organization’s semiannual      largest number of welfare recipients of all central California coun
reports to EDA, and they did not reconcile from period to period.        ties, and with an unemployment rate that consistently hovered in
For example, the semiannual report dated March 31, 2004, showed          double digits in the 1980s and 1990s, it needed thousands of new
26 loans made. But beginning September 30, 2004, and continuing          jobs. The city had proposed to create a business park and recruit
forward, reports show only 12 loans had actually been made. The          industries geared toward research, technology, and manufacturing
cumulative amount of administrative expenses should have increased       to provide jobs for people from a wide geographical area. The
over time; however, the amount shown from one period to the next         specific project included widening roads, installing curb-and-gutter
decreased at times. These errors cast doubt on the accuracy of all the   and utilities, extending water and sewer lines, and installing storm
RLF data, including the amount of excess cash.                           drains. When construction bids came in lower than anticipated,
                                                                         the city requested and EDA approved an award amendment that
                                                                         extended the originally approved roadway improvements beyond
What We recommended
                                                                         the limits defined in the original grant application.
We recommended that the EDA Chicago regional director require
the community development organization to place $419,655 in
excessive cash reserves in an interest-bearing account and remit
the interest earned to the U.S. Treasury. We also recommended
that EDA deobligate $199,432 of undisbursed grant funds, require
$142,018 in unallowable interest expense be returned to the RLF,
and take back $29,567 in excess grant disbursements. Finally,
EDA should require the organization to correct its most current
semiannual report.

Grantee response

In its response to our draft audit report, the community develop
ment corporation agreed with all of our findings and stated it would
take the actions we recommended. (Denver Regional Office of
Audits: DEN-17932)                                                       This is one of two new buildings in the research and technology busi­
                                                                         ness park being developed by a California city to help alleviate unem­
                                                                         ployment. The EDA grant funded infrastructure for the park.
                                                                         Source: OIG




16                                                                                     U.S. Department of Commerce/Office of Inspector General
                                                                                                                     Economic Development Administration



We conducted a final performance audit of the award to determine
whether costs claimed were reasonable, allowable, and allocable to
the sponsored project; whether award objectives had been achieved;
and whether accounting, procurement, and project management
practices and controls complied with award requirements.

our Findings

We found the costs claimed under the EDA award were reason
able and allowable and that infrastructure improvements had been
completed as intended. But although years have passed since
construction was completed and the award was closed, the park
remains nearly vacant.

However, the city has an active marketing strategy involving a
                                                                                  The California city using an EDA grant to build a regional vocational
variety of venues and has demonstrated continued commitment to                    training center finished the second floor only to “vanilla shell” stage,
park expansion. Recently, we followed up with a visit to the park                 which reduced the building’s training capacity.
and found development on two park parcels. The city’s efforts                     Source: OIG
meet the intent of the EDA project, and we have determined the
city complied with the terms and conditions of the award.
                                                                                  We conducted a final performance audit of the award to determine
We had no negative findings and did not recommend any cor                         whether costs claimed under the EDA award were reasonable, al
rective actions for the city or EDA. (Seattle Regional Office of                  lowable, and allocable to the project, and whether grant objectives
Audits: STL-17578)                                                                were achieved. We also wanted to determine if accounting, pro
                                                                                  curement, and project management practices and controls complied
                                                                                  with award requirements, assured efficient grant administration,
california city Handled Grant                                                     and resulted in an acceptable final project.
Well but more Work needed
to meet Economic Goals                                                            our Findings
In April 2001, EDA awarded a California city a $5 million grant                   We found that the costs claimed under the award were reason
to construct a regional vocational training center intended to teach              able, allowable, and allocable to the project, and the city had
residents new skills and reduce reliance on agriculture. The origi                complied with the basic terms and conditions of the award. The
nal award consisted of a federal share not to exceed $3.25 million                city constructed its regional vocational training center, but by
and a local match of $1.75 million. The award was subsequently                    April 2006 when we performed our audit, nearly 2 years after the
amended four times. The third amendment increased total esti                      award ended, the economic benefits expected of the project had
mated project costs to $5,420,101, with the federal share standing                yet to fully materialize.
at $3.25 million but the local share being increased $2,170,101.
The award period extended through August 2004.                                    Because of escalating construction cost estimates, the city did not
                                                                                  complete the second floor of the center. With EDA’s approval,
The city had always relied on farming products such as grapes                     the building was finished only to “vanilla shell” stage, which ef
and oranges for its economic base, but after decades of economic                  fectively reduced the center’s training capacity by half. A vanilla
setbacks, the locality ended up with a 15.9 percent unemploy                      shell is a completed external structure with minimal interior par
ment rate by 2000. The training center was to provide remedial                    titioning walls, paint, or floor covering. The city did not adjust its
education, specific training, and retraining for adults looking to                performance targets to account for the reduced capacity. The city
enter the job market. It also was intended to work with the private               also did not have a system for identifying and tracking training
industry council12 and local employers to develop job-specific                    accomplishments and progress or a strategic marketing plan to
training programs.                                                                meet its economic development goals.

                                                                                  The city had taken some steps to promote the center by assigning
                                                                                  center responsibility to an administrator who worked with indi
12
   Private industry councils were formed under the Job Training Partnership Act
of 1982 and replaced in July 2000 by broad-mandated Workforce Invest Boards.
                                                                                  viduals and businesses in the community. Most center promotion
The councils planned job training and employment service programs and conducted   and management duties were assigned to the city’s administrative
oversight in cooperation with local elected officials.                            services director who spent half her time on center-related activi-



September 2006/Semiannual Report to Congress                                                                                                             17
Economic Development Administration



ties in addition to her primary duties of managing city budgeting
and grants, financial services, and human resources.

In mid-2005, the city also convened a site committee to promote the
center and a marketing committee to inform the public of services
available from its tenants. Center tenants provide a number of
training courses and programs, but the city was unable to provide
evidence that these courses are part of an orchestrated curriculum
designed to lead to nonagricultural jobs. Without a student profiling
and job tracking system and a documented curriculum, there is no
way to be sure the center’s training programs are systematically mi
grating students from agricultural employment to new job fields.

our recommendations

We recommend EDA require the city to revise the project perfor
mance goals because of the center’s reduced capacity, implement a
system for tracking and reporting center training accomplishments,
and develop a strategic marketing plan to define, organize, and         This schematic shows the development area where two California
solidify the city’s marketing vision. The plan should include time      localities used an EDA grant to extend water and sewer utilities to two
frames and milestones and identify target student categories and        privately owned properties. The lands are being developed as an air­
prospective training vendors. The city also should develop and          plane museum, RV park, hotel, fast food restaurants, spa, and winery to
                                                                        generate 400 jobs.
document the assigned responsibilities for marketing, managing,
and operating the center.                                               Source: OIG



Grantee response
                                                                        vehicle (RV) park, hotel, fast food restaurants, spa, and winery.
Overall, city officials concurred with our findings and recommen        Local officials believed the proposed developments would gener
dations and described for us the corrective actions they had taken      ate 400 or more jobs in tourism-related businesses anticipated to
or that were in progress. We eliminated one finding in the report       cluster on the lands serviced by the project improvements.
based on the city’s evidence that it had taken required corrective
action in response to our draft report. We encouraged the city to       We conducted a final performance audit to determine whether
seek guidance from and coordinate its ongoing corrective actions        costs claimed under the EDA award were reasonable, allowable,
with EDA to ensure they are properly completed. (Seattle Regional       and allocable; whether award objectives were achieved; and if
Office of Audits: STL-17579)                                            the project’s accounting, procurement, and project management
                                                                        practices were proper. Our audit revealed the city’s performance
Audit Finds california                                                  was deficient in several ways:
Water and sewer project
performance Deficient                                                   $130,692 is Due to the Government

In 2001, EDA awarded a $3.2 million grant to a California county        Our review disclosed that the city failed to ensure that its admin
and adjacent city for a water and sewer project to build 7,400 linear   istration of the grant adhered to applicable federal cost principles
feet of sewer lines and 4,800 linear feet of water lines to connect     and uniform administrative requirements. We questioned $186,702
city utility systems to two large parcels of property. The award        of $2,832,834 in claimed costs and we recommended recovery of
included a federal share of $2.2 million (70 percent) and a local       the federal share of $130,692.
match of $986,000 (30 percent). After amendments, the award
was extended to November 30, 2004.                                      project Was Built, Economic
                                                                        Benefits Did not come
The 217.5-acre project consisted of two privately owned proper
ties: a 106.5-acre redevelopment project zoned for light industrial     Before the infrastructure project was complete, the city rezoned
and commercial use inside the city limits and a 111-acre parcel in      11.77 acres of the 106.5-acre redevelopment area from light
the county to be developed as an airplane museum, a recreational        industrial and commercial to residential, which reduced the




18                                                                                    U.S. Department of Commerce/Office of Inspector General
                                                                                                      Economic Development Administration



acreage available to generate the predicted long-term economic        Grantees’ responses
development.
                                                                      In general, the recipients concurred with our findings and rec
At the time of our audit in August 2005, a year had passed since      ommendations and described corrective actions in progress or
construction was completed and the 111-acre tract in the unin         proposed. However, the city disagreed with the number of acres
corporated area of Monterey County that belonged to the prime         rezoned from light industrial and commercial to residential use
project beneficiary was still vacant. When we followed up in          and provided support for its revised number. We accepted the
August 2006, the project was still undeveloped, and its county        city’s support and have adjusted the final report and questioned
development permit was set to expire in October 2006. In addition,    costs accordingly. We did not agree with the city’s assertion that a
the localities did not have a viable marketing strategy in place to   rezoning of 5 percent of the total area should not result in ineligible
help meet the economic development goals.                             costs and stand by our report.

our recommendations                                                   The city agreed to create and implement project development
                                                                      strategies that promote timely accomplishment of the long-term
We recommended the EDA regional director take a number of             job generation requirements necessary to achieve the full economic
actions:                                                              potential of the project and noted that it had increased staff time
                                                                      devoted to the marketing and developing of the EDA project.
   •	 Inform the grant recipients that the remaining redevelop
      ment property must remain zoned for light industrial and        The county took exception to the recommendation to develop a
      commercial use for the entire economic life of the project.     marketing plan for private property. We appreciated that concern
                                                                      and encouraged EDA to ensure the county implements the safe
   •	 Require the grantees to develop and implement a long-term       guards proposed to protect EDA’s interest. The county has agreed
      development strategy and a comprehensive marketing              to recommend that the developer post a faithful performance
      plan.                                                           bond, which would be used to repay a proportionate share of the
                                                                      grant attributable to the unincorporated portion of the utilities
   •	 Inform the recipients of the risk of having to refund the       project if the development fails. (Seattle Regional Office of Audits:
      grant and be designated “high-risk” recipients because of       STL-17580)
      unsatisfactory performance.

   •	 Disallow questioned costs of $186,702.




September 2006/Semiannual Report to Congress                                                                                           19
                                                   Economics
                                                   AnD stAtistics
                                                   ADministrAtion

                                  Group Quarters Enumeration continues


  T
          he Economics and 

                                    to challenge the census Bureau
          Statistics Administra
                                             We are closely monitoring the Census Bureau’s preparations leading up to the 2010 national
          tion analyzes economic
                                               decennial census. In the March 2006 Semiannual Report to Congress (pages 19-22), we
  developments, formulates policy
                                                  reported on the opportunities the Census Bureau missed during its test of the automated
  options, and produces a major share of
                                                    address canvassing operation with handheld computers.
  U.S. government economic and demo-
  graphic statistics. The chief economist
                                                      The Census Bureau has reengineered its strategy for the 2010 decennial to im
  monitors and analyzes economic develop-
                                                        prove accuracy, reduce risks, and contain costs. Part of that strategy includes
  ments and directs studies that have a bearing
                                                         a program of early planning, development, and site testing culminating with a
  on the formulation of economic policy. ESA
                                                          2008 dress rehearsal of the actual 2010 census. A site test is a partial census of
  has two principal agencies:
                                                          population and housing under realistic conditions in selected areas to determine
                                                           if procedures and systems are effective prior to a decennial census. The Cen
  U.S. Census Bureau is the country’s preeminent
                                                           sus Bureau is conducting the 2006 test in two locations—a portion of Travis
  statistical collection and dissemination agency. It
                                                           County, Texas, that includes parts of the city of Austin and its suburbs, and the
  publishes a wide variety of statistical data about
                                                           Cheyenne River Reservation and Off-Reservation Trust Land in South Dakota.
  the nation’s people and economy, conducting ap-
                                                          The bureau chose these two sites because their demographics and geography
  proximately 200 annual surveys, in addition to the
                                                          support test objectives.
  decennial census of the U.S. population and the
  quinquennial census of industry.
                                                        counting Group Quarters residents proved Difficult
  Bureau of Economic Analysis prepares,
  develops, and interprets the national income        Most residents in the United States live in single family houses, apartments, and
  and product accounts (summarized by                mobile   homes. But according to Census 2000 data, more than 7.8 million people
  the gross domestic product), as well as          live in situations called group quarters, such as college dormitories, nursing homes,
  aggregate measures of international,           prisons,  migrant  worker   dormitories, convents, and group homes. Since the 1970 de-
  regional, and state economic ac-             cennial, the  bureau  has used  different procedures to enumerate this population, because
  tivity.                                    counting  group   quarters differs from enumerating other types of housing units.

                                         Enumerating group quarters in the 2006 test consisted of developing the group quarters list,
                                     validating the list to verify and define the type of group quarters, and enumerating group quarters
                                residents. Census employees visited every address on the list to determine whether the address is actually
                          a group quarters and, if so, what type. After validation, a final list was produced for enumeration. We conducted
                 our review at the Travis County site, where residential housing units received a Census questionnaire in the mail. But
enumerators visited each group quarters by appointment to either complete the Individual Census Report or drop it off to be filled out
by residents or the group quarters administrator. Once a form for each resident had been completed and reviewed, the forms were taken
to the local census office to be shipped for processing at the National Processing Center in Jeffersonville, Indiana.

We reviewed the group quarters operations in Austin to determine (1) whether the recommendations made by internal and external
evaluations following the 2000 Census and 2004 test for the 2010 decennial were addressed, (2) whether there were new or continuing
problems in the operation, and (3) whether all existing group quarters in the test area had been identified and enumerated. Although
the bureau is clearly testing new methods to better enumerate the group quarters population, we concluded that it still has a number of
problems to overcome in enumerating group quarters.




September 2006/Semiannual Report to Congress                                                                                          21
Economics and Statistics Administration



census Addressed many Group
Quarters problems from 2004 but
2006 test revealed new ones

After the 2000 decennial census and the 2004 census test, a number
of operational assessments and evaluations were issued by the
Census Bureau, the National Research Council of the National
Academy of Sciences, the Government Accountability Office, and
the Office of Inspector General. We found the bureau addressed
most of those recommendations including attempting to improve
the group quarters list and reduce list duplication, revising group
quarters definitions and the group quarters questionnaire, better
tracking of the group quarters questionnaire, and counting people
where they sleep (as in dorms) rather than where administrative
records are kept (e.g., University of Texas).

The Travis county site includes four large universities and col
                                                                            Census uses a database program to select every 10th group quarters
leges, making it an ideal test site for the student population. But         for a quality check. Batch envelopes not checked for quality are placed
students proved a particularly challenging population for enu               in a checkout box. Then the envelopes and records are rescanned and
merators, especially those living in fraternities and sororities. We        shipped out to Jeffersonville, Indiana.
recommended Census find better ways to count students living in             Source: OIG
college/university group quarters, such as using campus resources
(e.g., student Greek life offices) to obtain administrative records
for fraternity/sorority students.                                           housing unit, or nonresidential address. We reviewed more than
                                                                            1,500 validation questionnaires and discovered that some residents
incorrect Designations                                                      and managers of nontraditional student housing, such as private
Hampered Enumeration                                                        dorms and student cooperative housing, self-identified themselves
                                                                            as a group quarters facility even though they did not fit into any
During the 2006 Census test, the group quarters list-building activi        of Census’s group quarters definitions. As a result, the number of
ties identified 1,778 addresses to be verified as a group quarters,         facilities and population counts for that type of group quarters is
                                                                            likely inaccurate.

                                                                            If these nontraditional student housing units were defined as private
                                                                            residences that received housing unit questionnaires, there was
                                                                            an increased likelihood that students who did not respond had
                                                                            moved out of their residence prior to the follow-up operation. In
                                                                            those cases, enumerators relied on records kept in administrative
                                                                            offices, which often lacked Hispanic origin and race information.
                                                                            It took more time and effort to enumerate these facilities than if
                                                                            the building had originally been defined as a group quarters.

                                                                            Apartment complexes Were
                                                                            incorrectly identified

                                                                            We found that 42 percent of the 1,778 addresses to be validated were
                                                                            associated with large apartment complexes. During address can
                                                                            vassing, individual apartments in large complexes were erroneously
                                                                            identified as potential group quarters. This consumed an inordinate
                                                                            amount of lister and enumerator time, wasted resources (such as other
                                                                            living quarters validation questionnaires), and antagonized apartment
                                                                            managers by having several enumerators visit them multiple times.
Small residential group quarters often blend into single family neighbor­   The processes used to enumerate large apartment complexes appear
hoods. This ordinary looking house in Austin turned out to be a convent.    unwieldy, although Census has identified a change that will reduce
Source: OIG                                                                 the number of enumerators visiting an apartment complex.



22                                                                                        U.S. Department of Commerce/Office of Inspector General
                                                                                                      Economics and Statistics Administration



Final list Did not include more than                                    contact a small, specific population—students—via e-mail and al
a Dozen Existing Group Quarters                                         low them the option to respond electronically. The bureau did agree
                                                                        with our recommendation to use the Internet and other resources
The validation operation was supposed to refine the list into a final   to improve the group quarters list.
group quarters enumeration list. But we found an additional 15
group quarters that had not been included on the list just by doing     Census also did not agree with our finding that the double scanning
a limited Internet search, something that had been recommended          process for the group quarters enumeration forms was unneces
after the 2000 Census, and speaking with group home adminis             sary except for those that were opened for quality control. The
trators. We also found three facilities that appeared twice on the      bureau only partially agreed to review and revise, as necessary,
list and six addresses on both the group quarters enumeration and       the methods used to evaluate the accuracy of and reduce duplica
housing unit lists, which could cause inaccurate counts.                tions on the group quarters list. We asked Census to provide us
                                                                        with additional support and reasoning in an action plan. (Office of
Census’s oversight and evaluation methods do not adequately ad          Inspections and Program Evaluations: IPE-18046)
dress the problems associated with the group quarters validation
and enumeration lists. Census should use online tools (e.g., state
licensing web sites) to identify additional group quarters facilities
and do a better job of verifying lists.

census needs to improve some of
the Administrative procedures of
the Group Quarters operation

We found some group quarters enumeration processes and proce
dures that should be improved in preparation for the 2008 dress
rehearsal and the 2010 decennial. For example, during the 2000
census, some forms were unaccounted for or could not be associ
ated with a particular group quarters. The bureau implemented a
procedure to scan all forms when they arrived at the local Census
office and then scan them again when they were shipped out to the
National Processing Center. This ensured forms could be returned
to the correct batches if they were inadvertently separated.

However, scanning every form twice will increase the document           The local Census office clerk scans the barcode label on each batch
scanning workload in the 2010 census by at least 15 million over        envelope of forms in the check-in box, then scans the barcode of each
                                                                        individual record in the envelope.
the 2000 local Census office workload and may not be necessary
if the forms and batch envelopes are unopened from the time they        Source: OIG
were scanned in to the time they are shipped. We recommended
the bureau find a way to more efficiently track the forms, such as
using a sealed envelope system.

                                                                        Audits Unresolved for
Bureau response
                                                                        more than 6 months
The Census Bureau concurred with some of our findings and rec
ommendations, but took issue with others. In particular, the bureau     its services, inc.
believes that its quality assurance methods to identify, quantify,
and rectify problems are sufficient. The bureau also disagrees with     In March 2005, we reported that 3 of the 32 task orders awarded
exploring the use of the Internet as a possible response option for     under a Virginia IT services contract were audited to determine
campus student enumeration. In light of the results of Census 2000      whether the costs billed by the firm were reasonable, allowable, and
and three other tests of responding online, the bureau has elimi        allocable under contract terms and conditions and federal regula
nated the Internet option because of low usage, increased security      tions. We found that the firm had failed to comply with numerous
risk of census data, and high implementation costs. However, we         contract and federal requirements, and we questioned more than
had suggested only that the bureau explore using the Internet to        $8.5 million in direct labor and reimbursable costs.




September 2006/Semiannual Report to Congress                                                                                             23
Economics and Statistics Administration



computer & High tech
management, inc.
We reported in our September 2005 Semiannual Report (page 14)
the results of audits of 2 of the 21 task orders for another Virginia
firm providing IT services to Census. We sought to determine
whether the firm had complied with contract terms and conditions
and federal regulations and had billed Census for work performed
in accordance with specifications of the task order. We found that
the firm failed to comply with numerous contract and federal re
quirements, which caused us to question more than $10.7 million
in direct labor and other reimbursable costs.

We have suspended audit resolution on both of these contract
audits pursuant to an agreement with Census.




24                                                                      U.S. Department of Commerce/Office of Inspector General
                                       International Trade
                                       Administration

                                    ITA’s Commercial Service Operations in

T
       he International                Argentina and Uruguay Operate Well, but
       Trade Administra-                  Financial Processes Need Attention
       tion is responsible for trade
promotion and policy issues associ-                   Commerce OIG regularly inspects U.S. Commercial Service (CS) overseas posts. In
ated with most nonagricultural goods and                late 2005, we inspected the five CS China offices. Our report, CS China Generally
services. ITA works with the Office of the U.S.            Performs Well but Opportunities Exist for Commerce to Better Coordinate Its
Trade Representative to coordinate U.S. trade                Multiple China Operations (IPE-17546), was profiled in the March 2006
policy and with other agencies to coordinate U.S.              Semiannual Report to Congress (pages 23-26).
trade promotion efforts. ITA has four principal units:
                                                                   In June 2006, we inspected CS’ offices in Argentina and Uruguay, focus-
Market Access and Compliance develops and imple-
                                                                    ing on management, program operations, and financial and administra-
ments international economic policies of a bilateral,
                                                                      tive practices. These offices have a combined management structure,
multilateral, or regional nature, and participates in trade
                                                                       both being managed by the senior commercial officer in Argentina.
negotiations. Its main objectives are to obtain market access
for American firms and workers and to ensure full compli-
                                                                        CS’ staff in Uruguay also coordinates with the State Department
ance by foreign nations with trade agreements signed with the            economic counselor in Uruguay on day-to-day matters.
United States.
                                                                        Our review found that CS Argentina and CS Uruguay are pro-
Manufacturing and Services undertakes industry trade analysis,           viding useful export assistance to U.S. companies and have
shapes U.S. trade policy, participates in trade negotiations, orga-      established collaborative relationships with key U.S. government
nizes trade capacity-building programs, and evaluates the impact         offices and nongovernmental organizations. CS Argentina’s River
of domestic and international economic and regulatory policies          Plate regional initiative promotes the Uruguay market to U.S.
on U.S. manufacturers and service industries.                           exporters, and the office collaborates effectively on export control
                                                                        activities with Commerce’s Bureau of Industry and Security.
 Import Administration defends American industry against
 injurious and unfair trade practices by administering the anti-      Posts Have Effective Administration,
 dumping and countervailing duty laws of the United States            but Face Future Challenges
 and enforcing other trade laws and agreements negotiated to
 address such trade practices.                                     Both posts generally work well. During FYs 2005 and 2006, feedback
                                                                  from CS Argentina and CS Uruguay’s clients was generally positive.
 U.S. Commercial Service seeks to promote economic              Most clients said they were satisfied with the quality and timeliness of the
 prosperity, enhance U.S. job creation, and strengthen         services they received. CS Argentina’s management of human resources,
 national security through a global network of               physical office space, information technology, and other administrative
 international trade professionals. CS promotes            matters is effective overall. However, we found a few concerns at both posts
 and protects U.S. commercial interests abroad           that warrant management action.
 and delivers customized solutions to help
 U.S. businesses, especially small and
                                                    Property management, particularly in Uruguay, needs improvement. We recommended
 medium-sized enterprises, compete
                                                  CS improve guidance on property and inventory management, including the disposal
 effectively in the global mar-
                                              of computers and other property so that both posts can properly dispose of obsolete and
 ketplace.
                                         surplus items.

                          CS Argentina also needs to plan ahead for the approaching retirements of its senior commercial specialists.
                   Both CS Argentina and CS Uruguay should develop effective partnerships with Commerce’s Brazil-based regional
   programs to promote compatible technical standards and intellectual property rights protection.




September 2006/Semiannual Report to Congress                                                                                          25
International Trade Administration



posts should improve Documentation                                          Argentina management comply with CS’export success guidelines,
of Export successes                                                         which require posts to retain documentation verifying the accuracy
                                                                            of reported successes.
Since CS’handling of this important performance measurement has
been a recurring problem over the last several years, we reviewed           Accounting and Financial
a sample of the export successes reported by both posts during              management need Attention
FYs 2005 and 2006. We found that most of the reported successes
complied with most aspects of CS’ export success guidance, and              CS management had requested that we review the advantages and
the narratives describing the export successes generally contained          disadvantages of CS Argentina’s current process of certifying its
sufficient detail. CS officers did review all reported export suc           own payments in Argentina. Specifically, CS management sought
cesses and did verify the pertinent facts for some of the reported          more information on the process in Argentina as it considered
transactions. But the posts did not always maintain sufficient              whether it should seek to have other posts certify their payments
documentation to fully substantiate reported export transactions            in order to reduce charges for administrative services provided by
and CS’ value-added export-related assistance.                              the State Department.

The posts were able to provide full documentation substantiating            In 2000 CS Argentina partially opted out of the State Department’s
only 49 percent of the export successes in our sample and partial           payment certification and accounting services. We found that CS
documentation for another 34 percent of the sample. There was no            slightly reduced the amount that it pays to the State Department
documentation for the remaining 17 percent. We recommended CS               by certifying its own vouchers, but current ITA and Commerce
                                                                            policies prohibit this. Select CS Argentina staff who were certify
                                                                            ing payments when we inspected the post, though trained, were
              2005 Country Profiles                                         not properly authorized to do so. CS headquarters permitted
                                                                            certification of payments but did not have the authority to make
 Argentina                           Uruguay                                that decision.
 Population:	 39.9 million           Population: 3.4 million
                                                                            We also found that CS Argentina does not receive full account
 Size:           1.07 million        Size:          68,040 sq. mi.          ing services from the State Department. This may compromise
                 sq. mi.                                                    Commerce’s internal controls for overseas accounting because
                                     GDP:           $32.9 billion
 GDP:	           $518 billion
                                                                            ITA’s accounting practices partially rely on the State Department’s
                                                    purchasing
                 purchasing                         power parity            internal control procedures to verify the overseas transactions re
                 power parity                                               ported to ITA through State’s accounting system. CS Argentina’s
                                     Major industries: bever­               accounting procedures are also inconsistent with ITA policy, as
                                     ages, chemicals, electrical            clarified by ITA during the course of our review. That policy
 Major industries: con-
                                     machinery, food processing,            requires overseas posts to receive their accounting services from
 sumer durables, chemicals
                                     petroleum products, and                the State Department.
 and petrochemicals, food            textiles
 processing, motor vehicles,
 metallurgy, and textiles    Leading agricultural                           We recommended CS change its financial management practices
                             exports: barley, corn, fish,                   in Argentina to comply with ITA and Commerce policies. CS
 Leading agricultural        livestock, rice, and wheat
                    headquarters should coordinate any future financial management
 exports: fruits, corn, to­
                                                initiatives with ITA to ensure that the initiatives are permitted
 bacco, peanuts, wheat, and Leading sectors for U.S. 
                      and have adequate controls and oversight. CS headquarters and
 livestock                   exports and investment:

                                                                            ITA’s Office of Financial Management should also improve their
                             agriculture, chemicals, tele-
 Leading sectors for U.S. communications, fertilizers,                      coordination and communication to ensure that all CS officials
 exports and investment: and infrastructure projects                        at headquarters and posts understand overseas financial manage
 agricultural machinery,                                                    ment policies.
 electric power systems,
 information technology,
 medical equipment and                                                      Bureau response
 supplies, and mining ma­
 chinery                                                                    ITA agreed with most of our findings and provided responses de
                                                                            tailing actions it will take to correct problems we found. The initial
                                                                            response represents a positive step, but we have asked ITA to take
Sources: CIA World Fact Book (2006) and CS Argentina’s Country Commercial
                                                                            additional steps to adequately respond to our recommendations.
Guide 2006, and CS Uruguay’s Country Commercial Guide 2006
                                                                            For example, ITA’s response said that the May 18, 2006, changes




26                                                                                     U.S. Department of Commerce/Office of Inspector General
                                                                                                          International Trade Administration



to its export success verification and documentation guidance           ITA’s response said authority to dispose of property is granted via
were made to establish clear standards for export success claims.       e-mail messages from regional offices, but those instructions are
However, that guidance was not clear on verification methods to         not consistent with guidance provided in the Office of International
be used by first-level approvers of export successes. CS has since      Operations Administrative Manual. Providing accurate guidelines
issued more detailed export success verification procedures that        for securing information technology assets is necessary to protect
adequately address our concerns.                                        sensitive information stored on government computers, handheld
                                                                        devices, and other equipment. (Office of Inspections and Program
ITA stated that CS Argentina has discontinued the practice of           Evaluations: IPE-18111)
certifying its own payments. However, CS Argentina’s partial
participation in State’s accounting services calls into question the
effectiveness of internal controls for accounting at overseas posts.
ITA must either ensure that the accounting services provided by         oiG makes recommendations
State for CS Argentina are consistent with established internal
controls for overseas posts, or it must establish separate oversight    to improve travel Briefings
processes for the post. Since the release of our final report, CS has
reported to us that it has fully subscribed to the State Department’s   After learning Commerce employees were not routinely receiving
accounting services.                                                    formal counterintelligence briefings prior to traveling to certain
                                                                        foreign countries, we held a number of discussions with the director
ITA did not agree that CS Uruguay should transfer user fees that it     for security and other senior officials from the Office of Security.
collects for services provided by the State Department back to that     We also issued a report with recommendations we believe would
department. ITA said the spirit of cooperation between the Com          improve the process. Department officials responded with only
merce and State staffs in Uruguay “could be damaged by a new            partial agreement to our suggested improvements. In May 2006, we
emphasis on division of collections.” Despite this close working        met with Department officials again. As a result, we modified some
relationship, CS does not have the authority to retain user fees that   of our recommendations, but we requested an action plan within
it collects for the State Department. CS should develop procedures      60 days. That action plan has now been submitted by the Office of
consistent with applicable rules on user fees and similar to proce      Security and is under review. We will continue to monitor the issue
dures followed for collections at other partnership posts.              to ensure all Commerce travelers receive appropriate counterintel
                                                                        ligence preparation prior to going overseas on official business.
                                                                        (Office of Inspections and Program Evaluations: IPE-17954)




                                                                        suitability review process
                                                                        needs improvements
                                                                        During this semiannual period, we conducted a classified examina
                                                                        tion of Commerce’s review process that determines the suitability
                                                                        of staff assigned to certain overseas posts. We recommended that
                                                                        ITA and Commerce’s Office of Security better define the proce
                                                                        dures and coordinate the timing of such reviews. (Office of Inspec
                                                                        tions and Program Evaluations: IPE-17546, Appendix F)


Source: http://www.cdc.gov/travel/images/map_temsam.jpg




September 2006/Semiannual Report to Congress                                                                                          27
                                               nAtionAl ocEAnic
                                               AnD AtmospHEric
                                               ADministrAtion
                                             soaring costs, Delays plague

T
       he National
       Oceanic and Atmo                  triagency satellite program
       spheric Administration

studies climate and global change;             The National Polar-orbiting Operational Environmental Satellite System (NPOESS), a
ensures the protection of coastal oceans         joint project of NOAA, Defense, and NASA, is intended to monitor global environ
and the management of marine resources; pro-        mental conditions and disseminate climate data to support military, civilian, and
vides weather services; and manages worldwide          scientific needs. NPOESS will combine existing polar-orbiting satellites into a
environmental data. NOAA does this through the            single state-of-the-art system.13 NOAA has overall management responsibil
following organizations:                                    ity for the converged system; Defense is the lead on acquisition matters;
                                                              and NASA is the lead for promoting transition to new technologies.
National Weather Service reports the weather of the
United States and provides weather forecasts and warnings                          NPOESS’ original acquisition plans entailed, among other things,
to the general public.                                                              development of seven instruments under a single satellite integra
                                                                                     tion contract worth $4.5 billion awarded to a prime contractor. The
National Ocean Service provides products, services, and in-                           contract included an incentive arrangement that made it possible
formation that promote safe navigation, support coastal commu                         for the contractor to be paid lucrative bonuses (“award fees”) of
nities, sustain marine ecosystems, and mitigate coastal hazards.                       as much as 20 percent of the total estimated contract cost. Initial
                                                                                       estimates put life-cycle costs for the entire system at $6.5 billion
National Marine Fisheries Service conducts a program of                                and set a deadline of March 2008 for the first satellite launch.
management, research, and services related to the protection and
rational use of living marine resources.                                 In September 2005, satellite program officials notified Congress
                                                                         that NPOESS costs had grown by at least 15 percent, largely
National Environmental Satellite, Data, and Information                 because of problems with the Visible/Infrared Imager Radiometer
Service observes the environment by operating a national               Suite  (VIIRS)14—one of four sensors considered critical to the
satellite system.                                                     program. In November 2005, the Government Accountability Office
                                                                     (GAO) informed Congress that life-cycle cost estimates for NPOESS
Office of Oceanic and Atmospheric Research conducts                 were likely to grow to $9.7 billion, and the launch of the first NPOESS
research related to the oceans and Great Lakes, the                satellite was at least 17 months behind schedule.15 That same month,
lower and upper atmosphere, space environment, and               DoD’s Cost Analysis Improvement Group estimated that NPOESS cost
the Earth.                                                     growth   had exceeded 25 percent, triggering the Nunn-McCurdy provision
                                                             of the 1982 National Defense Authorization Act. Nunn-McCurdy requires the
Office of Marine and Aviation Operations                   Defense Secretary to certify in writing that the program is essential to national
operates NOAA’s ships and aircraft and                  security; an alternative, less costly option does not exist; new cost estimates have
provides NOAA programs with trained                  been  developed   and are reasonable; and a management structure is in place to keep
technical and management person                   costs in check.  Without   such certification, DoD’s involvement in the program would
nel from the nation’s seventh                be  terminated  and  program    funding cut in half.
uniformed service.
                                          NPOESS was at this point some $3 billion over budget and well behind schedule, yet the contractor
                                    had received more than $123 million—84 percent—of available award fees. Our audit sought to determine
                             how cost and schedule overruns had grown to such proportions without apparent penalty to the contractor. We

 In 1994, by Presidential Decision Directive, NOAA merged its Polar Operational Environmental Satellite (POES) Program with the Department of Defense’s Defense
13

Meteorological Satellite Program to produce the National Polar-orbiting Operational Environmental Satellite System (NPOESS).
14
     VIIRS collects visible/infrared imagery and radiometric data, such as sea-surface temperature readings and ocean color measurements.
15
  U.S. Government Accountability Office, November 2005. Polar-Orbiting Environmental Satellites—Technical Problems, Cost Increases, and Schedule Delays Trigger
Need for Difficult Trade-off Decisions, GAO-06-249T. Washington, D.C: GAO.




September 2006/Semiannual Report to Congress                                                                                                             29
National Oceanic and Atmospheric Administration



looked at how the contractor identifies and communicates problems
with NPOESS to the integrated program office—the entity within
NOAA responsible for day-to-day management of the satellite
program; how that office in turn communicates problems to NOAA
officials; and whether award fees allowed under the integration
contract were administered effectively.

major Findings

We uncovered two overarching management and contract weak
nesses that contributed to the unchecked cost and schedule over
runs.

the npoEss Executive committee Did
not challenge optimistic Assessments
of the impact of viirs problems

Reports that problems with the VIIRS sensor would delay the           Under the revamped NPOESS program, the U.S. will launch four orbiters
                                                                      instead of six, and rely on European satellites to fill any resulting gaps in
NPOESS launch took observers of the program by surprise,
                                                                      satellite coverage.
prompting our concerns that the integrated program office either
was unaware of the VIIRS problems or failed to bring them to the      Source: http://eic.ipo.noaa.gov/IPOarchive/ED/graphics_kit/npoess_orbiter_
                                                                      300DPI.jpg
attention of senior management, particularly the NPOESS execu
tive committee (EXCOM). EXCOM is made up of top leadership
from each agency: the Under Secretary of Commerce for Oceans
and Atmosphere, the Under Secretary of Defense for Acquisition        satellite launch, EXCOM began meeting more often to investigate
and Technology, and the NASA Deputy Administrator.                    the issues and their impact. Unfortunately, by then it was too late
                                                                      to turn the program around: EXCOM’s long-term inattention had,
In fact, we found that information sharing was not effective be       in effect, postponed critical evaluations and decisions needed
tween the contractor, the VIIRS subcontractor, and the program of     to replan the program’s faltering elements and contain cost and
fice at the outset of the program. But as VIIRS problems persisted,   schedule overruns.
the program office and prime contractor took steps to improve
communication and increase oversight of the VIIRS subcontractor.      We recommended that the Deputy Secretary ensure the Under
Beginning in December 2002, the integrated program office sub         Secretary for Oceans and Atmosphere works with the other
mitted monthly status reports to EXCOM that explicitly described      members of EXCOM to obtain regular, independent evaluations
the growing costs and delays attributable to VIIRS. Yet until March   of the status of NPOESS that thoroughly assess progress toward
2005 the program director—a NOAA employee—maintained that             completing critical tasks.
these problems would be solved within available funding reserves
and that NPOESS remained on schedule.                                 contractor received Excessive
                                                                      Award Fees
                                          Despite mounting evi
                                          dence of the seriousness    Award fees are supposed to motivate a contractor to strive for
                                          of the VIIRS problems,      excellence. But the NPOESS experience shows that this incentive
                                          EXCOM did not chal          structure does not always result in the intended caliber of perfor
                                          lenge the director’s op     mance. Despite ongoing, significant delays and cost overruns, the
                                          timistic assessments,       prime contractor received close to the maximum fee amounts for
                                          and rarely convened         the first five billing periods—an average 90 percent of available
                                          during the first years of   incentive payments. It was only in period six—which covered the
                                          the program to consider     6 months prior to the Nunn-McCurdy breach—that the contractor’s
                                          its status. Finally, in     performance was rated unsatisfactory. Even so, the prime received
                                          2005, after the program     48 percent of the potential fee amount—$10.7 million.
                                          office reported that VI
                                          IRS problems would          These payments were permissible because the award fee plan’s
                                          indeed delay the first      evaluation criteria do not sufficiently tie incentive earnings to




30                                                                                U.S. Department of Commerce/Office of Inspector General
                                                                                            National Oceanic and Atmospheric Administration



completion of the most critical or high-risk tasks. And the poten      search and rescue satellite
tial fee pool—20 percent of total estimated costs—is atypical: a
GAO review of Defense award fee contracts found that less than         system Does not provide
1 percent of these arrangements allowed fee pools to exceed 15         Adequate Assurance
percent of estimated costs. Finally, the NPOESS plan gives total       of Users’ identities
authority for setting fee amounts to a “fee determining official”
who in the case of NPOESS is also the program director. This           The security of information exchanged over the Internet is critical
individual’s objectivity in assessing the contractor may well          to the effectiveness of e-government operations and to the public’s
be compromised by his responsibility for NPOESS’ day-to-day            willingness to use online government services. OMB requires
management and his stake in the program’s success. The pay             agencies to formally assess the degree to which this information
ments approved by the fee determining official for periods two         must be protected. These risk assessments measure the harm that
through five routinely exceeded the recommendations made by            would result from the data’s unauthorized release or modification.
the NPOESS review board.                                               The level of harm dictates the level of “assurance,” or confidence,
                                                                       in a user’s identity a system must establish before allowing access
The Under Secretary for Oceans and Atmosphere and his EXCOM            and determines how rigorous the electronic authentication process
counterparts should revise the NPOESS award fee plan to (1) tie        for verifying user identities must be. We evaluated the quality of
incentive payments to the most critical tasks and contractor per       an assessment NOAA conducted on the e-authentication process
formance, and (2) assign responsibility for determining fee awards     that controls user access to its Search and Rescue Satellite-Aided
to an official who does not directly manage the program.               Tracking system (SARSAT).

responses from the Department                                          SARSAT is the U.S. portion of an international search and rescue
and noAA                                                               program. It collects emergency information that is transmitted from
                                                                       beacons carried on ships, planes, and search and rescue person
In responding to our report, the Deputy Secretary of Commerce          nel to satellites. The information is then sent to the appropriate
stressed the importance of NPOESS to the Department’s mission
and national responsibilities, noting that he now receives monthly
NPOESS progress reports from NOAA. He stated that he will
work with the Under Secretary for Oceans and Atmosphere and the
EXCOM partners to ensure NPOESS is managed, operated, and
monitored in a way that meets the intent of our recommendations
as well as those of the Nunn-McCurdy process.

The Under Secretary for Oceans and Atmosphere generally
agreed with the intent of our recommendations but stated that
the report does not (1) adequately acknowledge the complex
ity of the NPOESS program, (2) represent the ongoing level of
EXCOM’s direct involvement in overseeing both NPOESS and
the integrated program office, (3) fully characterize the contract’s
award fee structure, and (4) adequately recognize Defense’s role
in administering the contract.

We assessed our report in light of NOAA’s comments and deter           Life-saving SARSAT operations begin with distress signals transmitted
mined that it did in fact present in enough detail the information     from beacons carried by people, planes, or ships to the global network of
NOAA believed was lacking. We worked with NOAA to develop              search and rescue satellites. The personal locator beacons pictured here
                                                                       use GPS technology to alert rescue personnel within 3 minutes of signal
a suitable action plan for resolving the weaknesses we identified.     transmission.
(Offices of Audits and Systems Evaluation: OIG-17794)
                                                                       Source: http://www.noaanews.noaa.gov/stories/images/plb-groupshot2.jpg
                                                                       http://www.omao.noaa.gov/aviationsafety/pdf/AviationLifeSupportEquipment-
                                                                       Program.pdf#search=%22SARSAT%20beacons%22




September 2006/Semiannual Report to Congress                                                                                              31
National Oceanic and Atmospheric Administration



U.S.-based rescue coordination centers and international entities.          describes the extent to which controls are implemented correctly,
SARSAT maintains databases of registered beacons and incident               operating as intended, and meeting security requirements.
histories, both accessible to authorized users via web-based ap
plications.                                                                 sArsAt’s E-Authentication controls Fall
                                                                            short
Our evaluation sought to determine if the SARSAT risk assessment
identified the appropriate level of e-authentication controls and           We found problems with SARSAT’s e-authentication risk as
whether the controls had been implemented and properly certified            sessment and system security plan, and found that certification
prior to the system’s accreditation.                                        activities did not appropriately examine e-authentication controls.
                                                                            We also identified unmitigated deficiencies in the controls for the
Determining E-Authentication needs                                          web applications.

OMB established four assurance levels for agency applications,              noAA Did not Accurately Assess
depending on the business being conducted, with level 1 requiring           Assurance levels
little or no confidence in the user’s identity and level 4 requiring
very high confidence.                                                       Agencies determine required assurance levels by comparing the
The risk assessment                                                         impact profile from their risk assessment with impact profiles in
measures the potential                                                      OMB’s guidance, and selecting the level that meets or exceeds the
adverse impact on in                                                        potential impact to their system in every category. For example,
dividuals or an organi                                                      if an agency determines an authentication error could have a
zation’s operations or                                                      moderate or high impact on personal safety, it should meet level
assets in six categories:                                                   4 e-authentication requirements, even if all other consequences
inconvenience, financial                                                    are minimal.
loss, harm to agency
programs, unauthor                                                          For one of the SARSAT databases, the risk assessment rated the
ized release of sensitive                                                   potential impact of unauthorized access to personal safety as
information, personal                                                       moderate. But NOAA assigned an assurance level of 2 for both
safety, and criminal or                                                     databases, rather than level 4, as OMB requires.
civil violations. Each as
surance level correlates                                                    The assessment incorrectly assigned a low level for the impact
with specific control re                                                    category unauthorized release of sensitive information: beacon
quirements established                                                      registration data is protected under the Privacy Act, and as such
by the National Institute                                                   requires a higher impact rating. The SARSAT system security plan,
of Standards and Tech                                                       in keeping with Privacy Act requirements, describes a moderate
nology in NIST Spe                                                          level of impact from breaches in the confidentiality of this informa
cial Publication 800-63, Responding to a distress signal picked up          tion. Because the assessment incorrectly considered confidentiality
Electronic Authentica        by SARSAT, a U.S. Coast Guard helicop-
                             ter airlifts the stranded crew of a grounded   objectives for beacon registration information, assurance levels
tion Guideline.              ship off the coast of Texas.                   were miscalculated and the risk to data in both applications was
                           Source: http://www.sarsat.noaa.gov/
                                                                            mischaracterized. The assessment failed to provide any justifica
Once the risk assess                                                        tion for the lower assurance levels.
ment has determined the
level of confidence, agencies must prepare system security plans            Finally, OMB guidance requires agencies to (1) consult with
that fully document requirements for authenticating users and the           their office of counsel regarding legal issues that may impact
controls they have planned or in place for doing so. They must              authentication requirements, and (2) consider the risk posed by
test controls and have them independently certified prior to the            users’ denial (or repudiation) of having electronically transmitted
system’s accreditation, develop a plan of action for eliminating            or received information. We found no evidence of legal consulta
the deficiencies, and set milestones for tracking and monitoring            tion in SARSAT’s risk assessment, and scant consideration of
their resolution. They must submit to the official responsible for          nonrepudiation.
authorizing a system’s operation, a security assessment report that




32                                                                                     U.S. Department of Commerce/Office of Inspector General
                                                                                           National Oceanic and Atmospheric Administration



the system security plan Did not                                        FismA review reveals
Adequately Address E-Authentication
controls                                                                officials need more
                                                                        information for c&A Decisions
A system security plan should provide an overview of security
requirements, including those for e-authentication, and detail the      As a part of our FY 2005 Federal Information Security Manage
controls that are in place or planned for meeting them before the       ment Act reporting, we evaluated two important parts of NOAA’s
system is authorized to operate. The SARSAT security plan did           certification and accreditation process: (1) system security plans/
not address these requirements, and did not adequately explain the      risk assessments, and (2) security control assessments. Although
established or planned authentication controls.                         our report details findings from work NOAA did in FY 2005, it
                                                                        was issued because our preliminary review of five C&A pack
For example, level 2 systems must have an identity-proofing             ages earlier in FY 2006 revealed that these packages had similar
process that validates enough information to uniquely identify          problems.
new users. The SARSAT plan did not describe such a process,
and the system security officer confirmed that identity proofing        On February 24, 2005, the Department’s chief information officer
does not occur. The security plan also did not detail mechanisms        issued a plan to have improved C&A packages by the end of FY
for authenticating web-based users. OMB does allow agencies             2005 for all national-crit
to reduce control requirements given certain cost/benefit consid        ical systems, along with
erations, but they must justify their decisions to do so. NOAA’s        a substantial number of      What Is C&A and Why
system accreditation package contained no such justification. At        mission-critical systems,    Does It Matter?
present, the controls in place for the web applications fail to meet    as a way to eliminate
                                                                                                     Certification is a compre-
even level 1 requirements. In addition, a login vulnerability in        Commerce’s IT security
                                                                                                     hensive assessment of secu­
one of the web applications identified by the risk assessment had       material weakness. All       rity controls implemented in
not been corrected, and our own examination of the other web            Commerce systems were        a computer system. It docu­
application revealed the same vulnerability.                            to have acceptable C&A       ments whether controls are
                                                                        packages by the end of       implemented correctly, oper-
The plan’s failure to document requirements and controls resulted       FY 2006. Accordingly,        ating as intended, and meet-
in inadequate system certification: e-authentication controls were      in FY 2005, NOAA be-         ing the security requirements
not sufficiently tested, the security assessment report was incom       gan an effort to improve     for the system. Through the
plete, and the authorizing official was not informed of e-authen        its certification and ac-    formal assessment of con­
tication deficiencies that may, in fact, increase the risk of harm to   creditation process.         trols, the system certifier
                                                                                                       identifies any vulnerabilities
both individuals and agency operations.
                                                                                                       that have not been eliminated
                                                                        For FY 2005, we re-
                                                                                                       by security controls.
                                                                        viewed the C&A doc
recommendations and noAA
                                                                        umentation for three           Accreditation is manage-
response                                                                NOAA systems: the              ment’s formal authorization
                                                                        Search and Rescue Sat-         to allow a system to operate.
We recommended that NOAA, among other things, redo the e-au             ellite-Aided Tracking          It includes an explicit ac­
thentication risk assessment to address the shortcomings we identi      system, the Polar Op-          ceptance of the risks posed
fied and improve the system security plan; correct vulnerabilities      erational Environmental        by any identified remain­
in the web applications’ login processes; and test e-authentication     Satellite Ground System
                                                                                                       ing vulnerabilities. Through
controls, document deficiencies, and track their resolution.                                           accreditation, senior agency
                                                                        (POES), and the Office         officials take responsibility for
                                                                        of Response and Res-           the security of systems they
NOAA disagreed with our conclusion that SARSAT’s e-authentica           toration Seattle Local         manage and for any adverse
tion controls do not provide adequate assurance of users’identities,    Area Network (Seattle          impacts should a breach in
but accepted all but one of our recommendations (after we clarified     LAN). Each of these            security occur.
the meaning of one of them). NOAA reported that it has already          systems was certified
corrected the login vulnerabilities we identified. The agency plans     and accredited as part of
to (1) update the e-authentication risk assessment and include jus      NOAA’s C&A improve
tification for why it did not implement minimum e-authentication        ment effort.
controls; (2) revise the system security plan in accordance with
NIST SP 800-53 requirements; (3) test SARSAT e-authentication           In 2004, we had reported that NOAA had significantly improved
controls; and (4) track gaps between required and implemented           risk assessments, security plans, and security control assessments,
controls. (Office of Systems Evaluation: OSE-18020)                     but needed to improve its C&A process. Our FY 2005 independent




September 2006/Semiannual Report to Congress                                                                                         33
National Oceanic and Atmospheric Administration



FISMA evaluation found that C&A packages for NOAA’s Seattle
area LAN and SARSAT were compliant with FISMA, but POES                    Describing the System Environment and
was not. However, even for SARSAT and the Seattle LAN, several             Interconnections
important aspects of the C&A process needed to be improved.
                                                                           The security plan provides information that is essential
                                                                           for determining the scope of security control assess­
NOAA has categorized SARSAT and POES as high-impact sys                    ments and associating a security deficiency identified
tems because a security breach would potentially have severe or            during testing with a specific network component. In
catastrophic adverse effects. The certification and accreditation of       describing the system environment and interconnec­
SARSAT and POES should therefore reflect the highest degree of             tions the plan should include the following:
rigor. The Seattle LAN, as a moderate impact system, would be
held to a somewhat lesser standard but a significant degree of due         •	   Detailed topology graphic that depicts system
                                                                                boundary and key components (e.g., perimeter se­
diligence should be manifest in the C&A process.
                                                                                curity devices, firewalls, routers, switches, servers).

system security plans and risk                                             •	   Complete listing of hardware and software compo­
Assessments somewhat improved                                                   nents.

                                                                           •	   Discussion of interconnections with other (both
NOAA security plans, which form the basis for certification activi              untrusted and trusted) systems, referencing and
ties by outlining the security requirements for a system and the                including copies of memoranda of understandings
controls in place, were improved from those we saw in our FY 2004               (MOUs) and other agreements for provision of IT
review with more accurate accreditation boundaries and better                   security for the connections.
identification of software components and interconnections. But
the plans did not accurately depict network components—raising
the possibility that certification efforts may not adequately account   Source: U.S. Department of Commerce IT Security Program Policy and Minimum
                                                                        Implementation Standards, June 30, 2005, pages 178–179. Similar requirements
for such devices. Current interconnection agreements were not in
                                                                        were part of the System Security Plan Certification and Accreditation Package
place for POES and SARSAT, which could pose increased risks             Requirements Inspection Checklist, version 2, June 30, 2003
to agency operations.

Risk assessments for all three systems provided useful informa
tion for NOAA system owners to determine appropriate security           ineffective vulnerability scans
controls, but we noted some flaws in the assessment methods.
Assessed threats and vulnerabilities were either vague or broad         NOAA’s use of vulnerability scans to assess the adequacy of secu
generalizations, and analyses at times confused the definitions of      rity controls was incomplete and ineffective. NOAA’s designated
some terms. There was no analysis of how controls would mitigate        scanning tool was unable to evaluate many network components
specific adverse events.                                                for all three systems. POES scans were successfully completed on
                                                                        only 4 of 14 components residing on its development network, and
We recommended that NOAA require security plans to include a            the operational network was not scanned at all. On the SARSAT
complete and accurate account of all system components and to           system, key components such as firewalls, routers, and switches
ensure interconnection agreements are in place. NOAA should use         were not scanned but the system still was accredited. And ad
risk assessments to tailor security controls and provide analysis       ditional scans of POES and SARSAT done in response to our
and justifications for resource-intensive changes to the security       concerns also were incomplete.
features of information systems.
                                                                        NOAA did not analyze or correct potentially serious vulnerabilities
security control Assessments insufficient                               on the Seattle LAN. Two additional scanning tools were used and
                                                                        identified a significant number of vulnerabilities, but the vulner
The POES, SARSAT, and Seattle LAN security control assess               abilities were not analyzed or corrected prior to the accreditation
ments covered only a few of the minimum security controls               decision, and they were not identified to the authorizing official.
described in NIST guidance. Generally, the C&A packages did
not include specific procedures used to evaluate the controls or        no penetration testing on poEs and
complete documentation of the results. In addition, the approach        sArsAt
used to select network components for technical control assess
ments did not provide for complete testing of all operating system      Penetration testing shows how vulnerable an organization’s net
variants running on servers, workstations, laptops, routers, and        work is and the level of damage that could result from a system
switches.




34                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                               National Oceanic and Atmospheric Administration



breach. POES and SARSAT are high-impact systems but, though            Better oversight of
required, no penetration testing was done.
                                                                       contractor information
our recommendations                                                    security is needed

We recommended NOAA undertake comprehensive vulnerability              FISMA requires agencies to develop and implement programs to
scanning, analyze and document scan results, and plan and imple        protect government information and information technology sys
ment penetration testing on high-impact systems such as POES and       tems. With the government’s growing reliance on contractors for
SARSAT. NOAA should comprehensively test all management,               services, agencies need to perform careful oversight of contractors’
operational, and technical controls; perform technical control tests   information security to avoid misuse of government information
on each operating system variant; and clearly document remaining       or disruption to government IT systems and operations.
vulnerabilities for benefit of the authorizing official.
                                                                       In 2002, we reported that Commerce contracts frequently lacked
                                                                       adequate security provisions and we called for IT security clauses
Bureau response                                                        to be included.16 In response to that report, the Department’s Of
                                                                       fice of Acquisition Management and Financial Assistance issued
In its response to our report, NOAA stated that it had completed       two contract clauses in 2003. Clause 73 requires contractors to
C&A activities for POES and SARSAT, made immediate revisions           comply with the Department’s IT security policy and have their IT
to its C&A process after our December 2005 exit conference, and        resources certified and accredited if they connect to a Commerce
implemented most of our recommended changes. We note that we           network17 or process or store government information. Clause 74
issued this report because several of the problems we identified in    requires contractor personnel to undergo appropriate background
our FY 2005 and previous reviews were evident in the additional        screening and IT security awareness training.
five NOAA C&A packages we reviewed early in FY 2006. (Office
of Systems Evaluation: OSE-18019)                                      To fulfill our charge under FISMA’s requirements, we evaluated
                                                                       a judgmental sample of 16 NOAA service contracts to determine
                                                                       whether NOAA is incorporating the two information security
             C&A of Contractor IT Resources:                           clauses into contracts and to evaluate whether their requirements
                                                                       are implemented. Our review also included interviews with man
                   Alternative Approaches
                                                                       agers and staff from NOAA’s Office of Acquisition and Grants,
   1.	 Contractor personnel perform the activities, and the            Office of the Chief Information Officer, and line offices.
       system is accredited by a government official as a
       contractor system.

   2.	 Government personnel and contractor share re­
       sponsibility for performing the activities, and the
       system is accredited by a government official as a
       contractor system.

   3.	 The contractor’s IT resources are incorporated into
       a government system accreditation boundary, and
       government personnel perform the majority of the
       activities.
                                                                       16
                                                                          U. S. Department of Commerce, Office of Inspector General. May 2002, Informa
                                                                       tion Security Requirements Need to Be Included in the Department’s Information
                                                                       Technology Service Contracts. OSE-14788. A subsequent OIG evaluation found
                                                                       that the Department had made progress in incorporating the new IT security clauses
                                                                       into contracts, but provisions for controlling contractor access to Department sys
                                                                       tems and networks were generally absent, and there was little evidence of contract
                                                                       oversight or of coordination among contracting, technical, and information security
                                                                       personnel. (U.S. Department of Commerce Office of Inspector General, Septem
                                                                       ber 2004. Information Security in Information Technology Security Contracts Is
                                                                       Improving, but Additional Efforts Are Needed, OSE-16513.)
                                                                       17
                                                                          C&A is required if the connection is to a trusted government network. Trusted
                                                                       networks are the networks inside an organization’s network security perimeter,
                                                                       with the exception of virtual private networks (VPNs). These networks are the
                                                                       ones the organization is trying to protect. CISCO Systems Glossary, http://www.
                                                                       cisco.com/univercd/cc/td/doc/product/iaabu/centri4/user/scf4glo.htm (accessed
                                                                       June 13, 2006).




September 2006/Semiannual Report to Congress                                                                                                       35
National Oceanic and Atmospheric Administration



our Findings
                                                                               Key Issues in Performing Contractor Information
We discovered some problems with aspects of clauses 73 and 74,                 Security Oversight
which contributed to issues we identified at NOAA this year and                1.	 Application of Clause 73. Contractors need to com­
in a review at USPTO in 2005.18                                                    ply with federal information security policy if they
                                                                                   have privileged access to government informa­
scope and content of clause 73 should                                              tion, access to government IT resources, or their IT
Be revised                                                                         resources are connected to a government trusted
                                                                                   network.
We learned that some NOAA officials and contractors incorrectly                2.	 Clause 73 Requirements. Clause 73 contains two
interpret Clause 73 to apply only to IT service contracts. Federal                 requirements: if the clause applies, the contractor
information security requirements apply to any organization—in                     must comply with relevant portions of the DOC IT
cluding federal assistance recipients or contractors—that has ac                   security policy, but the C&A requirement only ap­
cess to government information. Clause 73 is also outdated and                     plies if contractor IT resources contain government
contains ambiguous phrases that are interpreted in various ways,                   information or provide connection to a government
which causes some inconsistencies in application.                                  trusted network.

                                                                               3.	 C&A Level of Effort. Solicitations need to inform
noAA Does not Ensure contractor it                                                 contractors whether their IT resources will be
resources Are certified and Accredited                                             accredited at the low-, moderate-, or high-impact
                                                                                   level.
Seven of the 16 contracts in our sample required certification
                                                                               4.	 C&A Activities. Solicitations need to inform
and accreditation, but only 2 had fulfilled the requirement. C&A
                                                                                   contractors what work is expected to certify and ac­
had not been performed in the other 5 instances because NOAA                       credit its IT resources.
officials either did not recognize it was required or, if the need
was recognized, did not follow through to complete the C&A.
The remaining 9 contracts did not require C&A of contractor IT
resources because the place of performance was a NOAA facility
and the contractors used government IT resources.

Better Guidance is needed                                                   and contractor personnel are receiving background investigations
                                                                            commensurate with those risk levels as required by Clause 74.
It was clear to us that there was some confusion among acquisition
and IT security personnel on Clause 73’s requirements, the types            However, we found the risk levels were not documented in con
of contracts it applies to, and the conditions that trigger the need        tracts or identified in contract files, which made it difficult to
for contractors to certify and accredit their IT resources.                 determine whether the appropriate risk level had been assigned.
                                                                            In addition, the Commerce Acquisition Manual should be updated
Revising Clause 73 should go a long way toward addressing this              to reflect the Department’s revised IT security policy and the most
issue. But to make sure the clause is properly applied, in addition         recent guidance from NIST.
to updating Clause 73, the Department must develop guidance to
assist in resolving four key issues in the acquisition planning stage:
whether Clause 73 applies, which Clause 73 requirements apply,              What We recommended
the C&A level of effort, and who will perform the C&A.
                                                                            We recommended the Under Secretary of Commerce for Oceans
                                                                            and Atmosphere and NOAA Administrator primarily address
clause 74 requirements                                                      improving the certification and accreditation of contractor IT
Are not Documented                                                          resources that are either connected to a NOAA trusted network or
                                                                            allow privileged access to government information.
Contractor personnel generally receive IT security awareness
training prior to being granted access to NOAA IT resources. Con            We also recommended the Department’s chief financial officer
tracting officer representatives are determining contract risk levels,      and chief information officer initiate an update of Clause 73
                                                                            and the Commerce Acquisition Manual to be consistent with the
18
   Department of Commerce Office of Inspector General, September 2005.      Department’s IT security policy and NIST standards and guidance.
Information Security in Contracts Needs Better Enforcement and Oversight,   The Department also needs to clarify to which contracts Clause 73
OSE-17455.                                                                  applies and provide additional guidance to assist contracting offi-



36                                                                                     U.S. Department of Commerce/Office of Inspector General
                                                                                            National Oceanic and Atmospheric Administration




cers, contracting officer representatives, and IT security officers in   included an information security checklist to assist in determining
implementing information security for contractor IT resources.           whether the clause applies to a contract, and if so which provisions
                                                                         apply. The Department also revised the Commerce Acquisition
                                                                         Manual section on contract risk designations to be in alignment
positive responses from                                                  with the Department’s IT security policy. NOAA stated that it
noAA and the Department                                                  will take the appropriate steps to identify contractor IT resources
                                                                         requiring certification and accreditation and implement the C&A
Both NOAA and the Department agreed with our recommenda                  process. (Office of Systems Evaluation: OSE-18028)
tions. The Department’s director of acquisition management issued
a revised Clause 73 as well as a procurement memorandum that




September 2006/Semiannual Report to Congress                                                                                           37
                                       Technology
                                       Administration

                                  Audit Recommends Return of Nearly

  T                                 $800,000 from Cultural Group
         he Technol-
         ogy Administra-
         tion serves the needs of               In July 2002, the National Institute of Standards and Technology awarded a $1.3 mil-
  technology-based industry, advocates              lion grant to a not-for-profit organization dedicated to the creation, operation, and
  federal actions and policies to speed the            administration of cultural and artistic programs. The grant was to pay for real
  transfer of technology from the laboratory to           estate and develop programs to create the Puerto Rican Historical, Cultural,
  the marketplace, and removes barriers for com-            and Activities Center (also known as CASA Cultural Puertorriquena), which
  mercializing new technologies. It includes three             would include a museum, library, and town hall center to depict the migra-
  major organizations:                                          tion of the Puerto Rican people and culture to New York City.

  Office of Technology Policy works in partnership with           Originally, the NIST award was for a 1-year period beginning July
  the private sector to develop and advocate national poli-        2002, but the award was amended twice and extended. The first
  cies and initiatives that use technology to build America’s       amendment allowed costs incurred prior to the award making the
  economic strength, promote the creation of high-wage jobs,        effective start date of the award February 2, 2002. The second
  and bring about improvements in our quality of life.               amendment extended the award period another year with a new
                                                                     ending date of June 30, 2004. Neither amendment included any
  National Institute of Standards and Technology promotes            additional funds or changes to the award budget. NIST allowed a
  U.S. economic growth by working to develop and apply               90-day closeout period at the end of the award.
  technology, measurements, and standards. NIST man-
  ages four programs: the Advanced Technology Program,               Allegations of Wrongdoing
  the Manufacturing Extension Partnership program, the
  Baldrige National Quality Program, and NIST Research             The cultural organization put $500,000 of the award in escrow for
  Laboratories.                                                   a building site and spent more than 2 years trying to purchase the
                                                                 Old Bronx Courthouse to use for the CASA project. The organization
  National Technical Information Service is a                  finally concluded it did not have sufficient funds to buy the building,
  self-supporting agency that promotes the nation’s          the price of which ranged from an initial quote of $1.2 million to $4.8
  economic growth and job creation by providing             million. It was considering an alternative site when allegations that the
  access to information that stimulates innovation        organization had misspent federal funds appeared in New York City news-
  and discovery. NTIS accomplishes this mis-            papers, drawing congressional interest. A New York congressman contacted
  sion through information collection and            NIST and asked that the cultural organization be prohibited from spending any
  dissemination to the public and through          more of the grant money.
  information and production ser-
  vices to federal agencies.                Since a building had not been acquired, the organization returned the escrowed $500,000
                                       to NIST and submitted a closeout report for the 90-day period July 1 through September 30,
                                   2004, following the end of the award. We audited the organization to determine the financial status
                            of the award, whether the group had complied with all applicable laws and regulations, and whether the
                   expenses charged against the award were allowable.

While the majority of the funding came from NIST and other federal sources over the period of the award, the organization had ex-
pended funds for several different projects during this same time period. Only the costs associated with the acquisition of real estate
and development programs to create the cultural museum should have been charged to the NIST award but some of the organization’s
personnel worked on a separate theater renovation project originally funded by the Department of Housing and Urban Development,
fund-raising campaigns, and general management along with the CASA project. Expenses were paid based on the money available at
the time, not on the source and appropriate use of funds.




September 2006/Semiannual Report to Congress                                                                                       39
Technology Administration



                                                                              of costs and included it in the appendixes of the audit report. The
                                                                              costs were allocated using OIG’s judgment based on discussions
                                                                              with personnel and review of available documentation.

                                                                              Grantee’s response

                                                                              In their response to our report, officials of the cultural organization
                                                                              disagreed with the way we allocated costs in our report and said
                                                                              all funds were properly accounted for and all government money
                                                                              was spent for the intended projects. They gave some additional
                                                                              background information, but still did not provide the missing
                                                                              financial status reports or the documentation needed to identify
                                                                              the costs claimed for the award period.

                                                                              After thoughtful consideration of their objections, our finding that
                                                                              this organization’s financial management system was inadequate
                                                                              remains unchanged. We also continue to recommend that NIST
                                                                              disallow the $607,345 in questioned costs and recover the $182,865
The Old Bronx Courthouse was the desired site for a center dedicated to       in excess drawdowns, a total of $790,210 of funds disbursed. We
Puerto Rican history, but the price was too high for the cultural organiza­   also have not changed the recommended allocation of costs to
tion spearheading the project.
                                                                              CASA that NIST may want to use as an alternative position to dis
Source: OIG                                                                   allow a lesser amount of questioned costs since the organization’s
                                                                              personnel and resources were used on the CASA project. (Atlanta
no Effective controls                                                         Regional Office of Audits: ATL-17744)

Our audit revealed that the cultural organization did not have
effective controls over the NIST funds or adequate procedures
to determine allowability of costs for the grant or to allocate               nist’s Advanced
expenditures to the four separate cost centers it operated. It filed          technology program
only four financial status reports, all with the same date, covering
the period of August 2002 through March 2004. The organization                As part of its efforts to spur technological development, NIST
was unable to explain how the financial status reports had been               administers the Advanced Technology Program (ATP) to provide
prepared and could not provide reconciliation of the accounting               financial assistance through cooperative agreements, with the goal
records or itemized costs.                                                    of transferring cutting-edge technology to industrial uses. Between
                                                                              1990 and September 2004, ATP awarded $2.3 billion to support
The organization withdrew a total of $1,290,210 in NIST funds                 projects to develop promising, high-risk technologies. Industry has
through the award and closeout period. (It drew down the $500,000             matched this funding with $2.1 billion in cost-sharing.
for the purchase of real estate during the final month of the award.)
The remaining NIST funds drawn down for the award period and                  During this semiannual period, we audited three ATP cooperative
closeout period totaled $790,210. During this audit, we repeatedly            agreements to determine whether recipients were complying with
requested the remaining financial status reports and reconciliation           federal regulations, NIST ATP requirements, and award terms and
of the group’s accounting records to no avail.                                conditions. In all, we questioned nearly $500,000 in costs submit
                                                                              ted for federal reimbursement. Here are the details of what we
The organization also was unable to provide adequate documentation            found and recommended.
to support the outstanding drawdowns of $790,210 in NIST funds or
to substantiate the $607,345 of costs claimed on the financial status
reports. We recommended the NIST grants officer recover the full              Questioned costs, premature
amount of $790,210, which includes questioned costs of $607,345               Withdrawals Found in
and excess drawdowns of $182,865. We did not make further recom               california project
mendations because the award period has expired.
                                                                              A biotech firm received a 3-year ATP award to develop a genetic
In consideration of the organization’s use of its personnel and re            engineering technology that would increase commercial produc
sources on the CASA project, OIG developed a possible allocation              tion of plant compounds used in vitamins, pharmaceuticals, and



40                                                                                       U.S. Department of Commerce/Office of Inspector General
                                                                                                                   Technology Administration



other products. Total estimated costs of the project were $2.8 mil        aerospace, semiconductor manufacturing, and medical diagnos
lion, with the federal share capped at $1,987,774 in direct costs.        tics, to name a few. The 2-year project has total estimated costs
                                                                          of $2,199,076, with the federal share not to exceed $2 million
During the project’s first 20 months, the firm reported incurring         (93.8 percent).
direct costs of $672,161 but made $800,000 in withdrawals against
the award via the government’s automated payment system. We               From June 2004 through September 2005, the firm reported costs
identified two problems with this transaction: first, the firm violated   of $1,302,263 and received $1,273,369 in reimbursement. Our
ATP program requirements by withdrawing more money than                   interim audit questioned $12,466 in costs claimed, consisting
it needed to cover immediate expenses. Second, costs claimed              of $8,966 for equipment purchased outside of the award period
included $195,116 in lab supplies, which the firm calculated as           and $3,500 in unallowable relocation expenses. The firm also
a portion of its company-wide supply costs. This amount is an             had calculated reimbursement at a higher rate than allowed for
indirect cost because it was not expended solely on the ATP proj          by the award (98.7 percent versus 93.8 percent) and as a result
ect. Since indirect costs are not subject to federal reimbursement        received excess reimbursement totaling $63,539, which includes
under this agreement, the firm should have received $477,045              the questioned amount. Finally, we found that the company had
($672,161-$195,116). We questioned the $195,116 in claimed                not labeled equipment purchased with federal funds to indicate
costs and recommended that NIST recover $322,955 in excess                government ownership.
federal funds based on the following calculations:
                                                                          We recommended that NIST disallow the questioned costs, re
                                                                          cover $63,539 in excess reimbursement, and direct the recipient to
                                                                          properly tag all project-related equipment purchased with federal
          Direct costs claimed . . . . . . . . . . $672,161               funds. (Denver Regional Office of Audits: DEN-17832)
          Less questioned costs . . . . . . . . . . 195,116
          Costs accepted . . . . . . . . . . . . . . . . 477,045
                                                                          software costs at issue in
                                                                          california/nevada Joint venture

          Federal funds disbursed . . . . . . . $800,000                  In April 2004, a California company and a Nevada firm received
                                                                          $1.5 million in ATP funding to develop a prototype diesel engine
          Less costs accepted . . . . . . . . . . . . 477,045
                                                                          built on a thermal technology that—if successful—promised
          Amount due NIST . . . . . . . .$322,955                         huge gains in fuel efficiency along with reduced emissions. The
                                                                          2-year award capped federal contributions to the California firm at
                                                                          42.02 percent of allowable costs. The federal share to the Nevada
                                                                          firm was capped at 36.53 percent. We audited costs claimed by
We also recommended that NIST take action to ensure that the              the companies during the project’s initial 20 months (May 2004
firm does not withdraw more funds than it needs to cover its im           through December 2005).
mediate costs.
                                                                          The California firm incurred $789,271 in costs and received
Finally, we found that the firm did not have written standards for        $374,377 in federal reimbursement. We questioned $84,424 in
employee conduct or written procedures for minimizing the time            unsupported costs for, among other things, software that had been
between receipt and disbursement of federal funds, making pro             developed prior to the
curements with award dollars, and determining whether costs are           award, as well as tools
allowable. We recommended that NIST direct the firm to develop            and equipment that
and enforce the required written standards and procedures. (Denver        had been previously
Regional Office of Audits: DEN-17931)                                     purchased. We recom
                                                                          mended that NIST dis
                                                                          allow the questioned
colorado Firm Bills for                                                   costs and recover the federal share of $78,200.
nonproject Expenses,
miscalculates Federal share                                               The Nevada firm submitted costs of $393,210 and received
                                                                          $149,943 in reimbursement. We questioned $130,181, largely
A Boulder firm is using ATP funds to develop laser technology for         in unsupported software development expenditures, and recom
measuring optical frequencies far faster and more accurately than         mended that NIST disallow the full amount as well as recover
is currently possible. The technology has potential application and       $53,859 in excess federal disbursements. (Denver Regional Office
benefits for a range of U.S. industries—optical communications,           of Audits: DEN-17933-6-0001 and 0002)




September 2006/Semiannual Report to Congress                                                                                           41
Technology Administration




Audits Unresolved for                                                computer Aided surgery
more than 6 months                                                   inc., new york
                                                                     An OIG audit of this NIST cooperative agreement (see September
massachusetts mEp                                                    2004 issue, page 35, and March 2005 issue, page 33—ATL-16095)
                                                                     questioned costs totaling $547,426 in inappropriately charged rent,
We are continuing to work with NIST officials toward resolu          utilities, and certain salary, fringe benefit, and other expenses,
tion of an MEP cooperative agreement, which we reported on           because these costs were unallowable, in excess of budgetary
in our September 2004 Semiannual Report (page 37) as being           limits, or incorrectly categorized. This audit remains unresolved
unresolved for more than 6 months. Our audit had recommended         because we have postponed NIST’s submission of an audit resolu
that NIST disallow questioned costs of $8,177,606, recover the       tion proposal.
federal share of $1,599,349, and require the recipient to imple
ment improvements to its financial reporting system. In its audit
resolution proposal, NIST disallowed $715,097 and reinstated         FastvDo llc, maryland
$7,462,509 in costs questioned in the audit report. In July 2004,
after detailed analyses of NIST’s audit resolution proposal and      A financial assistance audit of this NIST cooperative agreement
other documents provided by NIST and the recipient, we advised       (see March 2006 issue, page 35, DEN-17410) recommended that
NIST that we concurred with its decision to disallow $715,097,       NIST disallow $51,838 in questioned costs, recover excess fed
but did not concur with reinstatement of the remaining $7,462,509.   eral disbursements of $29,409, and ensure the recipient, among
OIG is reviewing a revised audit resolution proposal that NIST       other things, (1) implements an adequate method for capturing
submitted in June 2005.                                              time directly spent on the ATP project, (2) bills only for that time,
                                                                     (3) develops written financial management procedures, and (4)
                                                                     tracks and inventories grant-funded purchases as required by
                                                                     federal regulations and ATP program terms. This audit remains
                                                                     unresolved because we have postponed NIST’s submission of an
                                                                     audit resolution proposal.




42                                                                              U.S. Department of Commerce/Office of Inspector General
                                        DEpArtmEnt-WiDE
                                        mAnAGEmEnt



  T
          he United
                                    commerce implemented reasonable
          States Depart-                precautions for special Hurricane 

          ment of Commerce                   procurements

  promotes job creation and
  improved living standards for all                In the aftermath of the 2005 hurricanes Katrina and Rita, PCIE’s Homeland Security
  Americans by creating infrastructure               Working Group coordinated the inspectors general reviews of post-hurricane spend-
  that fosters economic growth, technologi-            ing and examined relief efforts provided by the federal government because of
  cal competitiveness, and sustainable growth.           expressed concerns about the potential for fraud and waste in the massive effort.
  The Department has three strategic goals:               As part of the project, we surveyed Department of Commerce contracts and
                                                            financial assistance awards made in the wake of hurricanes Katrina and Rita
  Goal 1: Provide the information and tools to               to determine whether the Department had taken reasonable steps to reduce
  maximize U.S. competitiveness.                              the potential for fraud, waste, and abuse. Although the hurricanes represented
                                                              significant catastrophic events, we found that, on the contracts and financial
  Goal 2: Foster science and technological leader-            assistance awards we examined, the Department implemented reasonable
  ship by protecting intellectual property, enhancing         precautions to protect the interests of the government and ensure funds were
  technical standards, and advancing measurement              handled appropriately.

  science. 

                                                            NIST awarded one $300,000 contract to a California-based nonprofit corpo-
  Goal 3: Observe, protect, and manage the                 ration to conduct a field study of damage caused by the hurricanes to major
  Earth’s resources to promote environmental              buildings, residential construction, and different types of infrastructure, and to
  stewardship.                                          report on the findings and any recommendations for more detailed studies. NIST
                                                       cited an unusual and compelling urgency for the services to award the contract
  The Department has also established a              noncompetitively and stated the proposed contractor was the only responsible source
  Management Integration Goal that is             that could meet the government’s needs.
  equally important to all bureaus: 

  Achieve organizational and                  NOAA made 668 individual hurri
  management excellence.                  cane-related purchases, with obligations 

                                      totaling about $6.56 million. Cumulatively,
                                  some 608 of the purchases accounted for less than
                            $300,000 of NOAA’s total. The remaining 60 purchases
                   totaled about $6.27 million.

procurement personnel Dispatched
to pascagoula, mississippi

Most of NOAA’s 60 largest procurements involved emergency response and re
covery operations at a severely damaged NOAA facility in Pascagoula, Missis
sippi. NOAA facilities in Miami, Florida, and at Stennis Space Center in Missis
sippi also suffered damage from the hurricane. NOAA’s director of acquisitions
and grants designated NOAA’s Central Region Acquisition Division in Kansas
City, Missouri, as the lead office responsible for quickly restoring those operations.   Katrina’s storm surge flooded part of NOAA’s Pasca­
The director of the Central Region Acquisition Division and a NOAA project               goula, Mississippi, facility. The high water mark is visible
engineer were deployed from Kansas City to Pascagoula immediately after the              on the center wall—about 4 feet.
hurricane to provide on-site procurement support and oversee contractors.                Source: OIG




September 2006/Semiannual Report to Congress                                                                                                   43
Department-wide Management



                                                                            ment would be seriously injured unless NOAA was permitted to
                                                                            limit the number of sources from which it solicited quotes, bids,
                                                                            or proposals. Such class action determinations are permitted by
                                                                            Section 6.303-1(c) of the Federal Acquisition Regulation.

                                                                            The NOAA contracting officer determined that NOAA’s needs
                                                                            would best be served by awarding the cleanup and repair of the
                                                                            Pascagoula facility to a construction contractor who had been
                                                                            working on renovation and expansion prior to the hurricane, rather
                                                                            than delaying the cleanup while locating another contractor. We
                                                                            examined the contracting office’s written justification to award
                                                                            noncompetitively and the terms of the contract. We also obtained
                                                                            a written certification from the NOAA project engineer deployed
                                                                            to Pascagoula stating that the prices paid to the government were
                                                                            fair and reasonable.

Hurricane flooding wrecked the library in NOAA’s National Marine            In addition to facility cleanup and repair, managers of the damaged
Fisheries Service offices in Pascagoula, Mississippi, destroying valuable   Pascagoula offices and laboratories also teamed with the contract
research materials.                                                         ing officer and project engineer from Kansas City to buy modular
Source: OIG                                                                 buildings (trailers) to serve as temporary work space, replacement
                                                                            office and laboratory equipment and supplies, and replacement
On September 7, 2005, the Central Region Acquisition Division               vehicles. We reviewed a sample of the contracts entered into
director made a class action determination that full and open com           and found that most were awarded competitively, under normal
petition was not required for supplies and services in response to          Commerce procedures. We also examined receiving records and
Hurricane Katrina because NOAA’s need for those supplies and                toured the Pascagoula facility to observe the ongoing repair work
services was of an unusual and compelling nature and the govern             and confirm receipt of items purchased.




These outdoor freezers at NOAA’s National Seafood Inspection Laboratory in Pascagoula, Mississippi, were completely submerged by Hurricane
Katrina’s storm surge.
Source: OIG




44                                                                                     U.S. Department of Commerce/Office of Inspector General
                                                                                                              Department-wide Management



Finally, we examined specific instances in which NOAA used
emergency expanded procurement authorities granted in the
aftermath of Hurricane Katrina. Federal law allows agencies to
increase certain procurement thresholds and limitations to sup
port a national emergency and eight NOAA contracting officers
received emergency expanded procurement authorities. NOAA
contracting officers utilized increased authorities for only nine
procurements. Five involved the expanded simplified acquisition
authority at the hurricane-damaged Pascagoula, Mississippi, facil
ity to lease temporary work space, purchase generators to provide
electrical power, and purchase replacement laboratory supplies and
equipment. The largest of the five simplified acquisitions totaled
$140,000. The remaining uses of increased purchase authorities
involved three purchases of equipment, ranging in amount from
a little more than $10,000 to just under $14,000, and a waiver of
a small business set-aside for a $15,000 contract with a nonprofit
marine sanctuary foundation.

Based on our limited review, we believe that the Department
implemented reasonable precautions, given the circumstances
of a significant catastrophic event, to protect the interests of the
government and award contracts in a timely manner.

Financial Assistance Awards Were                                       Framing and electrical wiring repairs were required after Hurricane
reasonable and Handled properly                                        Katrina damaged NOAA’s National Marine Fisheries Service offices in
                                                                       Pascagoula, Mississippi.

Three Commerce bureaus made a total of six financial assistance        Source: OIG

awards, involving about $9.42 million in federal funding, in the
aftermath of hurricanes Katrina and Rita:

EDA awarded four grants totaling $8,840,000 to the states of           preaward Financial
Louisiana ($4 million), Mississippi ($4 million), and Alabama          Assistance screening
($450,000 and $390,000) for economic recovery planning and
technical assistance in the aftermath of Hurricane Katrina.            As part of our ongoing emphasis on prevention of fraud, waste,
                                                                       and abuse, we continue to work with the Office of Acquisition
MBDA awarded a $300,000 cooperative agreement amend                    Management, NOAA and NIST grant offices, and EDA program
ment to the Houston Minority Business Development Center for           offices to screen the Department’s proposed grants and cooperative
supplemental funding to provide business development services          agreements before they are awarded. Our screening serves two
to minority-owned businesses affected by Hurricane Katrina in          functions: it provides information on whether the applicant has
the state of Louisiana and to displaced minority firms from Loui       unresolved audit findings and recommendations on earlier awards,
siana relocated in Texas. There was no nonfederal matching share       and it identifies any negative financial or investigative history on
requirement for the amendment.                                         individuals or organizations connected with a proposed award.

NTIA awarded a grant with a federal share of $283,320 to the           On January 1, 2004, we implemented new policies and procedures
Louisiana Educational Television Authority, under the Public Tele      for our preaward screening process. OIG and the Department de
communications Facility Program, for emergency replacement of          termined that there are several categories of recipients for whom
transmission equipment. The grant required a nonfederal match of       the costs and administrative burden of the screening process may
$94,440, bringing the total estimated project cost to $377,760.        well outweigh the government’s risk of financial loss. Our new
                                                                       policies exempt from review, recipients who (1) receive awards in
After reviewing the EDA, MBDA, and NTIA award documents                amounts of $100,000 or less; (2) have received financial assistance
and regulations and discussing the awards with agency officials,       from the Department for 3 or more consecutive years without any
we believe the Department actions to award the grants were rea         adverse program or audit findings; or (3) are units of a state or
sonable. (Denver Regional Office of Audits: DEN-17829)                 local government.




September 2006/Semiannual Report to Congress                                                                                           45
Department-wide Management



During this period we screened 192 proposed awards. For 33
                                                                                                                        ATP
of the awards, we found major deficiencies that could affect the                                        OMB
                                                                                                                      Program-
ability of the prospective recipients to maintain proper control        Report Category                A-133                              Total
                                                                                                                      Specifics
over federal funds. On the basis of the information we provided,                                       Audits
                                                                                                                       Audits
the Department delayed 22 awards and established special award
conditions for 11. (Office of Audits)                                 Pending (April 1,
                                                                                                           33              118             151
                                                                      2006)

                                                                      Received                            142                  34          176
            Preaward Screening Results                                Examined                            119              112             231
                            Award
                                                                      Pending (September
                                                                                                           56                  40          96
                                                                      30, 2006)
 Results                   Number               Amount

 Awards delayed to             22             $25,884,555
 resolve concerns
                                                                     The following table shows a breakdown by bureau of more than
 Special award con­            11             $13,235,825            $660 million in Commerce funds audited.
 ditions established


                                                                                          Bureau                                       Funds

                                                                                              EDA                               $ 41,898,642
nonfederal Audit Activities                                                                 NIST*                               176,036,009

In addition to undergoing OIG-performed audits, certain recipients                          NOAA                                    39,208,751
of Commerce financial assistance are periodically examined by
                                                                                             NTIA                                     362,644
state and local government auditors and by independent pub
lic accountants. OMB Circular A-133, Audits of States, Local                        Multiagency                                 402,954,880
Governments, and Non-Profit Organizations, sets forth the audit
requirements for most of these audits. For-profit organizations         Agency not identified                                          22,429
that receive Advanced Technology Program funds from NIST are                                  Total                            $660,483,355
audited in accordance with Government Auditing Standards and
NIST Program-Specific Audit Guidelines for ATP Cooperative
                                                                     * Includes $169,942,322 in ATP program-specific audits.
Agreements, issued by the Department.
                                                                     We identified a total of $3,643,795 in federal questioned costs and
We examined 231 audit reports during this semiannual period to
                                                                     $2,846,452 in funds to be put to better use. In most reports the
determine whether they contained any audit findings related to
                                                                     subject programs were not considered major programs; thus the
Department programs. For 152 of these reports, the Department
                                                                     audits involved limited transaction and compliance testing against
acts as oversight agency and monitors the audited entity’s compli
                                                                     laws, regulations, and grant terms and conditions. The 28 reports
ance with the OMB Circular A-133 or NIST’s program-specific
                                                                     with Commerce findings are listed in Appendix B-1. (Atlanta and
reporting requirements. The other 79 reports are from entities for
                                                                     Denver Regional Offices of Audits)
which other federal agencies have oversight responsibility. We
identified 28 reports with findings related to the Department of
Commerce.




46                                                                               U.S. Department of Commerce/Office of Inspector General
                                     oFFicE oF inspEctor
                                     GEnErAl


                                 office of investigations


T
        he mission of the                During this semiannual period, the Office of Investigations maintained its focus on areas within
        Office of Inspector                 the traditional IG investigative portfolio—fraud, waste, and abuse in Commerce programs and
        General is to promote                  operations—while expanding its reach to combat other forms of internal and external corrup
economy, efficiency, and effective-              tion that negatively impact the Department, the federal government, and taxpayers. Notable
ness and detect and prevent waste,                 work conducted over the past 6 months includes investigation of a massive international
fraud, abuse, and mismanagement in                  telemarketing scam and a major immigration fraud ring. We also achieved impressive
the programs and operations of the U.S.              results in a diverse array of cases involving grant fraud, bribery, theft, and criminal
Department of Commerce. Through its                   misuse of government computer resources in connection with child pornography. The
audits, inspections, performance evalu-               investigations highlighted below are representative of our recent accomplishments in
ations, and investigations, OIG proposes              these and other areas of critical concern.
innovative ideas and constructive solu
tions that lead to positive changes for the
                                                     investigation of international telemarketing
Department. By providing timely, useful,
and reliable information and advice to               Fraud yields multiple Arrests, indictments, and
departmental officials, the administra-            convictions
tion, and Congress, OIG’s work helps
improve Commerce management                     For the past 3 years, OIG has been investigating a major telemarketing fraud scheme based
and operations as well as its de-             in  Costa Rica that was perpetrated by callers identifying themselves as employees of the
livery of services to the public.          Commerce       Department and other federal agencies. The callers told victims in the United States
                                         that they were winners in a national lottery sanctioned by the Department and that they had won
                                      sweepstakes prizes ranging in value from $450,000 to more than $4 million. Victims were then in
                                  structed to use commercial wire transfer services to send payments of $1,500 to $4,500 to Costa Rica,
                              purportedly for insurance and customs fees that were required to retrieve their winnings. Many victims were
                        persuaded to send multiple payments to the telemarketers—some individuals transferred more than $200,000.
                Total identified losses to U.S. residents exceed $30 million to date.

The investigation is being conducted in conjunction with the U.S. Postal Inspection Service, the Bureau of Immigration and Customs
Enforcement of the Department of Homeland Security, and several foreign law enforcement agencies, and is an integral part of the De
partment of Justice’s Operation Global Con, the largest international mass marketing fraud investigation of its kind. To date, Operation
Global Con investigations have developed evidence of several massive international confidence schemes that have defrauded nearly
3 million victims of more than $1 billion.

In May 2006, OIG spearheaded the simultaneous execution of 17 search warrants in the United States and Costa Rica, targeting tele
marketing call centers and the residences of several principal participants in the scheme. The search operation required coordination
among about 200 U.S. and Costa Rican law enforcement officers, 17 Costa Rican judges, and 24 Costa Rican prosecutors. It resulted
in the arrest and subsequent indictment of 18 American and Canadian citizens located in Costa Rica, Panama, and the United States
who were identified as owners or employees of the call centers in Costa Rica. We also seized $400,000 in cash, multiple weapons, and
a variety of equipment used to facilitate the scheme, including numerous Voice over Internet Protocol telecommunications devices,
which were employed to disguise the telemarketers’ true location by displaying area codes indicating that the calls originated in the
United States.

The defendants all were indicted on multiple counts of conspiracy, wire fraud, and money laundering in the Western District of North
Carolina. Since that time, indictments or criminal informations have been filed against an additional eight participants in the scheme,
including five Costa Rican nationals. Two of the defendants have already pleaded guilty to conspiracy to commit wire fraud.



September 2006/Semiannual Report to Congress                                                                                            47
Office of Inspector General



In addition, on August 2, 2006, a Costa Rican attorney previously      48 hours of the broadcast, the defendant contacted the American
indicted for his part in the telemarketing scheme (see March           Embassy in Rome and made arrangements to surrender.
2006 Semiannual Report, page 48) was convicted in U.S. District
Court for the Southern District of Florida on two counts of money      In May 2006, the defendant pleaded guilty to possession and
laundering. His sentencing was scheduled for November 2006.            production of child pornography. On August 30, 2006, he was
(Atlanta Field Office)                                                 sentenced in U.S. District Court for the District of Maryland to
                                                                       15 years in prison followed by 3 years’ supervised probation, and
noAA Employee sentenced to                                             ordered to liquidate his federal thrift savings account and pay
                                                                       all proceeds to the victim identified during our investigation as
15 years on child pornography                                          restitution for his crimes.
conviction
                                                                       The defendant’s brother still faces criminal charges in the Eastern
Our March 2006 Semiannual Report (page 51) reported the indict         District of California for helping the defendant evade arrest by
ment and arrest of a longtime NOAA employee for sexual exploi          failing to disclose his whereabouts to OIG investigators and warn
tation of children and possession of child pornography following       ing him that we had traced his movements to Canada. (Computer
an OIG investigation that found he had been using government           Crimes Unit)
and personal computers to download sexually explicit images of
children for at least a decade. An extensive forensic examination
of the employee’s home and office computers revealed more than         Government reaps $2 million
a million pornographic images of children, and a search of his         settlement in Qui Tam lawsuit
residence uncovered evidence that he was personally involved
in the production of child pornography. Thousands of slides and        A manufacturer of water storage tanks used in federally funded
photographic negatives discovered during the search disclosed im       development projects agreed to a $2 million settlement in order to
ages of a young child involved in sexual activity with an adult male   resolve claims that the tanks were not constructed in accordance
resembling the defendant.                                              with contract specifications. For a period of about 10 years, the
OIG investigators identi                                               company supplied steel water storage tanks for projects funded
fied and interviewed the                                               under grant programs administered by EDA and the Departments
now adult victim, who                                                  of Agriculture and Housing and Urban Development. A qui tam
confirmed that the defen                                               action filed in the Southern District of Indiana by a former em
dant had engaged in and                                                ployee of the company alleged that the welds used by the company
photographed sexual rela                                               to construct certain tanks did not meet contract specifications
tions with her on an ongo                                              and that the use of a less expensive and potentially less effective
ing basis from the time                                                welding technique rendered the tanks less structurally sound than
she was about 8 years old                                              required. It was also alleged that the company conspired with an
until she was 14.                                                      engineering firm to generate false testing records to show that the
                                                                       tanks it manufactured met contract specifications.
Rather than face arrest,
the defendant fled the                                                 In April 2006, following a joint investigation conducted by the
country after his indict                                               Commerce, Agriculture, and HUD OIGs, the company agreed to
ment, traveling from his                                               a settlement that provides a payment of $1.75 million to the gov
brother’s home in Cali                                                 ernment over an 18-month period, along with extended warranties
fornia to various locations                                            valued at $250,000, under which the company agrees to repair at
in Canada and Europe. By                                               its sole expense any failures, leaks, or degradation resulting from
employing sophisticated                                                substandard welding. Under the terms of the agreement, the former
investigative tracking                                                 employee who initiated the action will receive $400,000 of the
techniques and an exten                                                settlement proceeds. The company will also pay him $50,000 to
sive network of law en                                                 cover his legal costs. (Silver Spring Resident Office)
                                 OIG special agents store seized
forcement agencies in the        evidence.
United States and abroad,                                              Former census Employee indicted
                                 Source: OIG
OIG was able to quickly                                                for Workers’ compensation Fraud
trace him from Vancouver
to Prague, and finally to Italy. We had previously made contact with   On July 11, 2006, a former Census field representative was in
the national television program America’s Most Wanted, which           dicted in U.S. District Court for the Northern District of Georgia
aired a segment on the investigation on January 21, 2006. Within       on five counts of making false statements to collect federal work-



48                                                                                U.S. Department of Commerce/Office of Inspector General
                                                                                                                Office of Inspector General



ers’ compensation benefits for work-related injuries sustained in     of Columbia, which entailed the orchestration of sham marriages
a 1994 automobile accident. An OIG investigation disclosed that       between American citizens and foreign nationals seeking legal
the former employee failed to report more than $40,000 in earnings    immigration status in the United States. The arrests were the result
from a retail job and the operation of a show dog kennel when         of a 3-year task force investigation involving Commerce OIG, the
filing annual certifications with the Department of Labor between     Department of Homeland Security’s Immigration and Customs
2001 and 2005. As a result of her false reporting, she fraudulently   Enforcement branch, the State Department OIG, and several other
received about $89,000 in workers’ compensation benefits. The         federal, state and local law enforcement agencies.
defendant was released on bond pending further proceedings. A
trial date has not yet been set. (Atlanta Field Office)

sentencing in patent office Bribery
scheme
We previously reported the conviction of a draftsman at USPTO
for his participation in a bribery scheme initiated by his supervi
sor, who solicited payment from patent applicants in exchange for
drafting work performed by her staff. (See March 2006 Semiannual
Report, page 49.) In May 2006, the defendant was sentenced in
U.S. District Court for the Eastern District of Virginia to 1 year
probation, a $1,000 fine, and $100 in restitution. In August 2006,
a second employee implicated in the scheme agreed to enter the
Department of Justice’s Pretrial Diversion Program in order to
resolve the charges against him. Under the terms of the agreement,
all pending charges will be dismissed upon his successful comple
tion of a 6-month period of supervision under the program, which
will include 50 hours of approved community service. (Alexandria
Resident Office)

noAA Employee and spouse
convicted for Use of Government
Gas cards
In May 2006, a NOAA employee and her husband were convicted
of theft from the government after a joint investigation with the
General Services Administration OIG revealed that the couple
had on multiple occasions used GSA automotive fleet credit
cards assigned to NOAA to purchase gasoline for their personal
vehicles and the vehicles of others. On August 2, 2006, both de
fendants were sentenced in U.S. District Court for the District of
                                                                      Nine of those arrested—including the USPTO employee—are
Maryland. The employee was sentenced to 1 year probation, 50
                                                                      charged with facilitating the scheme by arranging fraudulent mar
hours of community service, and $448 in restitution. Her husband
                                                                      riages for a fee. The other 10 are foreign nationals who entered
received a sentence of 2 years’ probation, 90 days in a halfway
                                                                      into sham marriages in order to gain immigration benefits and
house, and restitution of $448. Based on her conviction, NOAA
                                                                      avoid deportation from the United States. Arrest warrants have
has proposed the employee’s removal from federal service. (Silver
                                                                      also been issued for 3 American citizens who were paid to marry
Spring Resident Office)
                                                                      aliens as part of the scheme. Charges have been filed against the
                                                                      defendants in the Eastern District of Virginia for multiple viola
commerce Employee Arrested for                                        tions of federal law, including immigration fraud, conspiracy to
role in immigration Fraud ring                                        defraud the United States, and filing false statements.

A senior patent examiner was one of 19 individuals arrested on        The investigation was initiated after a clerk at the Arlington County
September 7, 2006, in connection with an immigration fraud            Courthouse observed that the same individual was escorting groups
scheme operating in Maryland, Northern Virginia, and the District     of citizen/noncitizen couples to apply for marriage licenses on a




September 2006/Semiannual Report to Congress                                                                                         49
Office of Inspector General



weekly basis and often returned with the couples a short time later    Another former patent examiner was arrested by OIG on July 10,
to assist them in filing for divorce. (Alexandria Resident Office)     2006, and charged in Alexandria Circuit Court with embezzling
                                                                       more than $21,000 from USPTO between June 2005 and January
subcontractor on EDA project                                           2006 by submitting falsified time and attendance records. The
                                                                       defendant has been released on her own recognizance pending
sentenced for His role in Bribery                                      further proceedings. (Alexandria Resident Office)
scheme
In our March 2006 Semiannual Report (page 48), we reported             oiG recovers missing Weather
the conviction of a construction company owner for his role in an      service Equipment
extortion scheme run by a Philadelphia city official, who accepted
bribes to issue minority business certificates for use in bidding on   Early this year, OIG received information that meteorological
federally-funded construction projects, including several funded       equipment belonging to the National Weather Service was being
by EDA. On August 29, 2006, the defendant was sentenced in U.S.        offered for sale on eBay. We identified the equipment as part of a
District Court for the Eastern District of Pennsylvania to 5 years’    shipment of 50 radiosondes that was either lost or stolen while in
probation and a $6,000 fine and was ordered to pay restitution in      transit from the National Logistics Supply Center in Kansas City,
the amount of $31,852. (Alexandria Resident Office)                    Missouri, to a local weather forecast office. Radiosondes are bal
                                                                       loon-borne instruments used to transmit meteorological measure
                                                                       ments—such as wind speed and barometric pressure—from the
Former noAA Employee convicted                                         upper atmosphere to ground stations. OIG investigators located
of theft for time and Attendance                                       the eBay seller, who had purchased 30 of the missing instruments
Fraud                                                                  at an auction in North Carolina. We seized the 23 radiosondes still
                                                                       in his possession, as well as his customer list, and subsequently
A former NOAA employee was convicted of theft in the District          recovered an additional 6 units from purchasers. The investigation
Court of Maryland for Montgomery County after an OIG in                is continuing. (Atlanta Field Office)
vestigation found that he had manipulated the office’s time and
attendance database and altered manual timekeeping records to
obtain more than $11,000 in unearned salary over an 18-month
period. In June 2006, he was sentenced to 12 months’ supervised
probation, fined $400, and ordered to make full restitution to the
                                                                       other oiG Activities
agency. The employee retired from federal service shortly after
his arrest. (Washington Field Office)                                  commerce inspector General
                                                                       testifies Before House science
Additional convictions and                                             committee on npoEss
Arrest for t&A Fraud at Uspto
                                                                       On May 11, Inspector General Johnnie E. Frazier testified before
Our March 2006 Semiannual Report (page 50) reported the arrests        the U.S. House of Representatives Committee on Science about
of two USPTO employees, which resulted from OIG investigative          findings in an OIG report on cost overruns and schedule delays of
findings that the former patent examiners had embezzled a total of     the triagency National Polar-orbiting Operational Environmental
nearly $6,000 from the agency by falsely claiming pay for hours        Satellite System (NPOESS) weather satellite program.
not worked.
                                                                       Frazier told the committee that OIG’s review uncovered two overarch
On May 5, 2006, one of the defendants was convicted of theft           ing management and contract weaknesses that resulted in unchecked
in the Circuit Court of the City of Alexandria, Virginia. She was      cost and schedule overruns in the NPOESS program. First, the execu
sentenced to 30 days’ incarceration and ordered to pay $1,444 in       tive committee of the triagency program, comprised of top NOAA,
restitution. The second defendant was indicted on felony theft         Department of Defense, and NASA officials, never challenged opti
charges in June 2006 for defrauding USPTO of approximately             mistic assessments of the impact of technological problems. Second,
$4,470 in salary payments. After pleading guilty to the charges        the contractor received excessive award fees despite problems.
in August 2006, she was sentenced in Alexandria Circuit Court
on September 21, 2006, to 2 years’ probation and 50 hours of           “Inadequate management oversight, in effect, postponed critical
community service, and ordered to make full restitution to the         evaluations and decisions needed to replan the program’s falter
government. Both employees had resigned from the agency prior          ing elements and contain cost and schedule overruns,” Frazier
to arrest.                                                             said. “Time and money were thus wasted as NPOESS problems
                                                                       continued unchecked.”




50                                                                                U.S. Department of Commerce/Office of Inspector General
                                                                                                                    Office of Inspector General



Frazier said OIG’s audit questioned why fees were paid for unsat
isfactory performance and the contractor was allowed to roll over
unearned fees. “The intimate connection between the director’s
professional reputation and the success of both the program and
the contractor could affect his objectivity as fee determining of
ficial in setting award amounts,” Frazier added.

Vice Admiral Conrad C. Lautenbacher (ret.), administrator of
NOAA, also testified before the committee, saying NPOESS had
a history of budget and technical problems but that actions were
being taken to address them. He said the NOAA employee who
previously directed the project had resigned, and the prime contrac
tor had changed the personnel on the project. Lautenbacher added
that an Air Force Brigadier General had stepped in as director,
raising “concerns about whether NOAA and NASA priorities will          Commerce Inspector General Johnnie E. Frazier (left) testified before the
still receive adequate attention.”                                     House Science Committee about the environmental satellite program’s
                                                                       schedule delays and cost overruns on May 11. Vice Admiral Conrad C.
                                                                       Lautenbacher (ret.), administrator of NOAA, (right) also testified before
Rep. Sherwood L. Boehlert, chairman of the Committee on Sci            the committee.
ence, said NPOESS’ success is vital to the nation but the program
                                                                       Source: House Science Committee
was not succeeding and needed to get on track.

“What I want to hear clearly is an admission that NOAA — and           September 21, 2006, and was referred to the Senate Committee
that means NOAA’s leadership right up to the top — made                on Commerce, Science, and Transportation.
mistakes, can identify those mistakes, and has plans to fix those
mistakes,” Boehlert said. “I am not suggesting that anyone was         On June 8, 2006, the House Committee on Science held a hearing
not trying to do their best in running the NPOESS program. But         on the results of the statutorily required Nunn-McCurdy review.
I am suggesting that previous management procedures clearly            The Nunn-McCurdy provision of the National Defense Authori
were not successful.”                                                  zation Act requires that any DoD-funded program that is more
                                                                       than 25 percent over budget be reviewed to see if it should be
Vernon J. Ehlers, chairman of the Subcommittee on Environment,         continued and how.
Technology and Standards, said he had been assured in 2004 that
problems were being solved. “And here we are again, now billions       The review, which was carried out under the auspices of DoD by
over budget, with delays long enough that we are facing large          all three NPOESS agencies, determined that the program should
potential gaps in life-saving satellite data. This cannot continue,”   be continued with fewer satellites of lesser capability. The agen
Ehlers said. “We must make sure that we have the satellites we need    cies maintain that no additional funds beyond what is projected
when we need them, and effective management of the procurement         will be needed until FY 2010.
and acquisition process is essential to meeting this goal.”
                                                                       (A summary of the OIG report appears on page 29. The full report,
Commerce OIG has named managing the environmental satellite            OIG-17794: Poor Management Oversight and Ineffective Incen
program as one of the Department’s top management challenges.          tives Leave NPOESS Program Well Over Budget and Behind
“I am pleased to note that in his response to our report, Deputy       Schedule, can be viewed at www.oig.doc.gov/oig/reports/audit_in
Secretary (David) Sampson stated that both he and Secretary (Car       spection_and_evaluation_reports/index.html.)
los) Gutierrez are fully committed to providing strong oversight
and management of NPOESS,” Frazier added.                              oiG investigators Honored
On May 22, the House Science Committee introduced HR 5450,             Several staff members in the Office of Investigations were rec
the National Oceanic and Atmospheric Administration Act, which         ognized during this semiannual period by groups outside the
among other things, creates the position of deputy assistant sec       Department.
retary for science and education. The bill also requires NOAA
to notify Congress and the public if it plans to close or transfer     A criminal investigator in our Atlanta Field Office was named
a NOAA facility, and if it starts a new satellite program, or en       Special Agent of the Year by the Southeast Region of Inspectors
counters problems or makes major changes to an existing satel          General Council as a result of his exceptional work in the tele
lite program. The bill passed in the House of Representatives on       marketing fraud investigation detailed on page 47.




September 2006/Semiannual Report to Congress                                                                                              51
Office of Inspector General



The special agent-in-charge of our Computer Crimes Unit received     U.S. Attorney’s Office for the District of Kansas, as well as a
a Certificate of Honorable Mention from the National Center for      Distinguished Achievement Award from the Colorado chapter of
Missing and Exploited Children (NCMEC) for identifying a new         the Association of Certified Fraud Examiners. Both awards hon
victim for inclusion in NCMEC’s national database of missing         ored his work in connection with a successful fraud and money
and exploited children while investigating the case reported on      laundering investigation, which he conducted while serving in
page 48.                                                             his previous position with the Office of Inspector General at the
                                                                     Department of Health and Human Services.
Finally, during this period, a criminal investigator in our Denver
Resident Office received the Guardian of Justice award from the




52                                                                             U.S. Department of Commerce/Office of Inspector General
                                                                                                                                                           Office of Inspector General




TABLES AND STATISTICS

Statistical Overview

  TABLES	                                                                                                                                                                      PAGE


  1. Investigative Statistical Highlights for this Period...................................................................................................................53


  2. Audit Resolution Follow-Up ....................................................................................................................................................54


  3. Audit and Inspection Statistical Highlights for this Period ......................................................................................................54


  4. Audits with Questioned Costs ..................................................................................................................................................54


  5. Audits with Recommendations that Funds Be Put to Better Use.............................................................................................55


  APPENDIXES	

  A. Report Types this Period .........................................................................................................................................................56


       A-1. Performance Audits........................................................................................................................................................56


       A-2. Financial Assistance Audits ...........................................................................................................................................57


       A-3. Inspections and Systems Evaluations.............................................................................................................................58


  B. Processed Audit Reports ..........................................................................................................................................................59


       B-1. Processed Reports with Audit Findings .........................................................................................................................60





Table 1. Investigative Statistical                                                                Audit Resolution and Follow-Up
Highlights for this Period
                                                                                                  The Inspector General Act Amendments of 1988 require us to
  Investigative	Activities                                                                        present in this report those audits issued before the beginning of
                                                                                                  the reporting period (April 1, 2006) for which no management
  Arrests                                                                         26
                                                                                                  decision had been made by the end of the period (September 30,
  Indictments and informations                                                    32              2006). Eight audit reports remain unresolved for this reporting
  Convictions                                                                     10              period (see pages 23, 24, and 42).
  Personnel actions                                                                6
  Fines, restitutions, judgments, and other                                                       Department Administrative Order 213-5, Audit Resolution and
      civil and administrative recoveries                             $2,112,812                  Follow-up, provides procedures for management to request a
                                                                                                  modification to an approved audit action plan or for a financial
  Allegations	Processed                                                                           assistance recipient to appeal an audit resolution determination.
                                                                                                  The following table summarizes modification and appeal activity
  Accepted for investigation                                                      47              during the reporting period.
  Referred to operating units                                                     14
  Evaluated but not accepted for investigation or referral                        26
  Total	                                                                          87




September 2006/Semiannual Report to Congress                                                                                                                                            53
Office of Inspector General




Table 2. Audit Resolution Follow-Up	                                                     Table 3. Audit and Inspection Statistical
                                                                                         Highlights for this Period
     Report Category                              Modifications Appeals
                                                                                            Questioned costs                                         $ 4,145,894*
     Actions pending (April 1, 2006)                      1                10	
                                                                                            Value of audit recommendations
     Submissions	                                         2                 2
                                                                                               that funds be put to better use                              3,495,106
     Decisions	                                           3                 5
                                                                                            Value of audit recommendations
     Actions pending (September 30, 2006)                 0                 7                  agreed to by management	                                     1,704,308
                                                                                            Value of inspection recommendations
                                                                                               that funds be put to better use                                   N/A

                                                                                         *This number includes costs questioned bt state and local government auditors or
                                                                                         independent public accountants.



Table 4. Audits with Questioned Costs

     Report	Category	                                                                            Number	         Questioned	Costs	             Unsupported	Costs

     A. Reports for which no management decision had been made
        by the beginning of the reporting period                                                      19              $26,943,444                   $ 5,425,575

     B. Reports issued during the reporting period	                                                   30                 4,145,894                          214,733

          Total reports (A+B) requiring a management decision
          during the period1                                                                          49               31,089,338                      5,640,308

     C. Reports for which a management decision was made
        during the reporting period2                                                                  16                 4,471,814                     1,541,220

          i.   Value of disallowed costs                                                                                   809,741                          538,100

          ii. Value of costs not disallowed                                                                              3,802,657                     1,003,120

     D. Reports for which no management decision had been
        made by the end of the reporting period                                                       33               26,617,524                      4,099,088

NOTES:
1
 Nine audit reports included in this table are also included among reports with recommendations that funds be but to better use (see table 5). However, the dollar
amounts do not overlap.
2
    In Category C, lines i and ii do not always equal the total line C because resolution may result in values greater than the original recommendations.




54                                                                                                     U.S. Department of Commerce/Office of Inspector General
                                                                                                                                           Office of Inspector General




Table 5. Audits with Recommendations that Funds Be Put to Better Use

    Report	Category		                                                                                                     Number	                             Value

    A. Reports for which no management decision had been made by the beginning
       of the reporting period                                                                                                  7                      $ 2,975,478

    B. Reports issued during the reporting period                                                                              10                         3,495,106

       Total reports (A+B) requiring a management decision during the reporting period1                                        17                         6,470,584

    C. Reports for which a management decision was made during the reporting period2                                            9                         3,040,360

       i. Value of recommendations agreed to by management                                                                                                    894,567

       ii. Value of recommendations not agreed to by management                                                                                           2,202,301

    D. Reports for which no management decision had been made by the end
       of the reporting period                                                                                                  8                         3,430,224

1
 Nine audit reports included in this table are also included in the reports with questioned cost (see table 4). However, the dollar amounts do not overlap.
2
 In Category C, lines i and ii do not always equal the total on line C because resolution may result in values greater than the original recommendations.




Definitions of Terms                                                                    Recommendation	 that	 funds	 be	 put	 to	 better	 use: an OIG
Used in the Tables                                                                      recommendation that funds could be used more efficiently if
                                                                                        Commerce management took action to implement and complete
Questioned	cost: a cost questioned by OIG because of (1) an al                          the recommendation, including (1) reductions in outlays; (2) de-
leged violation of a provision of a law, regulation, contract, grant,                   obligation of funds from programs or operations; (3) withdrawal
cooperative agreement, or other agreement or document governing                         of interest subsidy costs on loans or loan guarantees, insurance,
the expenditure of funds; (2) a finding that, at the time of the audit,                 or bonds; (4) costs not incurred by implementing recommended
such cost is not supported by adequate documentation; or (3) a                          improvements related to Commerce, a contractor, or a grantee;
finding that an expenditure of funds for the intended purpose is                        (5) avoidance of unnecessary expenditures identified in preaward
unnecessary or unreasonable.                                                            reviews of contracts or grant agreements; or (6) any other savings
                                                                                        specifically identified.
Unsupported	 cost: a cost that, at the time of the audit, is not
supported by adequate documentation. Questioned costs include                           Management	decision: management’s evaluation of the findings
unsupported costs.                                                                      and recommendations included in the audit report and the issuance
                                                                                        of a final decision by management concerning its response.




September 2006/Semiannual Report to Congress                                                                                                                       55
Office of Inspector General




Appendix A. Report Types this Period

  Type	                                                        Number	of	Reports	                     Appendix	Number

  Performance audits                                                   2                                       A-1

  Financial assistance audits                                          8                                       A-2

  Inspections and systems evaluations                                  6                                       A-3

  Total	                                                              16




Appendix A-1. Performance Audits

  	                                                                         	   	                   	               Funds	to	
  	                                                                         	   	                   	              Be	Put	to	
  Report	Title		                                                     Report	Number		          Date	Issued		        Better	Use	

  National	Oceanic	and	Atmospheric	Administration

  Poor Management Oversight and Ineffective Incentives Leave
  NPOESS Program Well Over Budget and Behind Schedule                OIG-17794-6-0001            05/08/06


  Office of the Secretary


  A Survey of Hurricane Katrina and Hurricane
  Rita Contracts and Grants                                         DEN-17829-6-0001             07/20/06




56                                                                         U.S. Department of Commerce/Office of Inspector General
                                                                                                 Office of Inspector General




Appendix A-2. Financial Assistance Audits

  	                                                    	              	        Value	of		
  	                                                    	              	        Funds	to	      Federal	     Federal		
  	                                                    	            Date	     	Be	Put	to	     Amount	      Amount	
  Report	Title	                                 Report	Number	    	Issued	   	Better	Use	   	Questioned	 Unsupported

  Economic	Development	Administration

  City of Clovis, CA                           STL-17578-6-0001   07/31/06

  Shorebank Neighborhood Institute, IL         DEN-17932-6-0001   09/27/06   $ 648,654       $ 81,568

  City of Dinuba, CA                           STL-17579-6-0001   09/29/06

  City of Greenfield and County
  of Monterey, CA                              STL-17580-6-0001   09/30/06                    130,692        $ 24,958

  National	Institute	of	Standards	and	Technology

  Precision Photonics Corporation, CO          DEN-17832-6-0001   04/14/06                     11,693

  ReJen Company, NV                            DEN-17933-6-0001   09/14/06                     47,555          47,555

  Alvin Lowi & Associates, Inc., CA            DEN-17933-6-0002   09/15/06                     35,475          35,475

  Sangamo BioSciences, Inc., CA                DEN-17931-6-0001   09/15/06                    195,116




September 2006/Semiannual Report to Congress                                                                          57
Office of Inspector General




Appendix A-3. Inspections and System Evaluations

  	                   	                                                   	                    	             Funds	to	Be	Put		
  Agency	             Report	Title	                                Report	Number	        Date	Issued	         to	Better	Use

  Census

                      Enumerating Group Quarters
                      Continues to Pose Challenges                   IPE-18046             09/29/06                  —

  International	Trade	Administration

                      Commercial Service Operations in
                      Argentina and Uruguay Are Mostly
                      Sound but Financial Processes Need
                      Attention                                      IPE-18111             09/25/06                  —

                      Commerce Should Ensure that Travelers
                      to China Receive Counterintelligence
                      Briefings                                      IPE-17954             07/25/06                  —

  National	Oceanic	and	Atmospheric	Administration

                      SARSAT’s E-Authentication Controls Do
                      Not Provide Adequate Assurance of Users’
                      Identities                                     OSE-18020             09/15/06                  —

                      Additional Steps Are Necessary to Provide
                      Better Oversight of Contractor Information     OSE-18028             09/29/06                  —

                      Progress Being Made in Certification and
                      Accreditation Process, but Authorizing
                      Officials Still Lack Adequate Decision-
                      making Information                             OSE-18019             09/19/06                  —




58                                                                         U.S. Department of Commerce/Office of Inspector General
                                                                                                                                                                      Office of Inspector General




Appendix B. Processed Audit Reports

The Office of Inspector General reviewed and accepted 231 audit reports prepared by independent public accountants and local, state,
and other federal auditors. The reports processed with questioned costs, recommendations that funds be put to better use, and/or non
financial recommendations are listed in Appendix B-1.

  Agency	                                                                                                                                                                                  Audits

  Economic Development Administration ......................................................................................................................................40


  National Institute of Standards and Technology* ...................................................................................................................... 118


  National Oceanic and Atmospheric Administration.....................................................................................................................20


  National Telecommunications and Information Administration ....................................................................................................3


  Multiagency..................................................................................................................................................................................48


  Agency not identified .....................................................................................................................................................................2


  Total............................................................................................................................................................................................231


*Includes 112 ATP program-specific audits.




September 2006/Semiannual Report to Congress                                                                                                                                                         59
Office of Inspector General




Appendix B 1. Processed Reports with Audit Findings


  		                                               	            	              Value	of	
   	                                               	            	              Funds	to	       Federal	         Federal	
   	                                               	          Date	           Be	Put	to	       Amount	          Amount	
   Report	Title	                            Report	Number	   Issued	          Better	Use	     Questioned	     Unsupported

  Economic	Development	Administration

  Cumbres & Toltec Scenic
  Railroad Commission, CO                 ATL-09999-6-2392   09/22/06                         $ 35,973           $ 35,973

  New Bedford Economic
  Development Council, Inc., MA           ATL-09999-6-2589   09/22/06          $ 100,000

  Operation Hope, Inc., CA                ATL-09999-6-2653   09/22/06                          483,494

  Puerto Rico Industrial
  Development Company                     ATL-09999-6-2663   09/22/06                           74,964

  Tri-County Economic
  Development District, WA                ATL-09999-6-2601   09/22/06             89,416

  The East Los Angeles Community
  Union and Subsidiary, CA                ATL-09999-6-2571   09/29/06          2,265,718

  National	Institute	of	Standards	and	Technology

  PowerSicel, Inc., CO                    ATL-09999-6-2115   04/05/06             42,386        30,382             20,453

  Callida Genomics, Inc., CA              DEN-09999-6-1678   04/14/06                           25,602

  Organ Recovery Systems, Inc., IL        ATL-09999-6-2111   06/26/06             22,496         9,619

  Siemens Westinghouse Power
  Corporation, FL                         ATL-09999-6-1964   06/26/06                           13,104             13,104

  Gene Network Sciences, Inc., NY         ATL-09999-6-2461   07/24/06             59,688        20,502

  Display Technologies, Inc., CO          ATL-09999-6-2496   08/04/06                           66,801

  InRAD, LLC, TN                          ATL-09999-6-2526   08/11/06                           82,362

  Integrated Fuel Cell Technologies, MA   ATL-09999-6-2406   08/21/06                          142,301

  Engineous Software, Inc., NC            ATL-09999-6-2032   08/31/06                          403,276

  Polymer Technologies, Inc., NJ          ATL-09999-6-2474   08/31/06            251,421       178,862

  Alfred University, NY                   ATL-09999-6-2627   09/22/06                          111,447

  COVA Technologies, Inc., CO             ATL-09999-6-2164   09/22/06              2,167        74,919

  Geometric Informatics, Inc., MA         ATL-09999-6-2357   09/22/06                           13,944




60                                                                      U.S. Department of Commerce/Office of Inspector General
                                                                                                  Office of Inspector General




Appendix B 1. Processed Reports with Audit Findings (continued)


  		                                                   	             	        Value	of	
   	                                                   	             	        Funds	to	     Federal	         Federal	
   	                                                   	           Date	     Be	Put	to	     Amount	          Amount	
   Report	Title	                                Report	Number	    Issued	    Better	Use	   Questioned	     Unsupported

  Intermet Corporation, MI                     ATL-09999-6-2453   09/22/06                 $ 211,016

  Intermet Corporation, MI                     ATL-09999-6-2454   09/22/06                  357,693

  MesoFuel, Inc., NM                           ATL-09999-6-2372   09/22/06                  119,479

  Molecular Nanosystems, Inc., CA              ATL-09999-6-2495   09/22/06   $ 13,160        13,573

  Motorola, Inc., AZ                           ATL-09999-6-2227   09/22/06                   12,765

  The Timken Company, OH                       ATL-09999-6-2307   09/22/06

  E.I. du Pont de Nemours
  and Company, DE                              ATL-09999-6-2523   09/29/06                  977,033

  National	Oceanic	and	Atmospheric	Administration	

  State of South Carolina                      ATL-09999-6-2552   08/31/06       0          147,469               0

  Federated States of Micronesia
  National Government, FM                      ATL-09999-6-2672   09/22/06       0           37,215            37,215




September 2006/Semiannual Report to Congress                                                                            61
Office of Inspector General




REPORTINg REQUIREmENTS
The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual reports. The requirements are listed
below and indexed to the applicable pages of this report.

   Section	                         Topic	                                                                                                                  Page

   4(a)(2)                          Review of Legislation and Regulations .................................................................................62

   5(a)(1)                          Significant Problems, Abuses, and Deficiencies ..............................................................15–46

   5(a)(2)                          Significant Recommendations for Corrective Action.......................................................15–46

   5(a)(3)                          Prior Significant Recommendations Unimplemented ............................................................62

   5(a)4                            Matters Referred to Prosecutive Authorities ..........................................................................53

   5(a)(5) and 6(b)(2)              Information or Assistance Refused ........................................................................................63

   5(a)(6)                          Listing of Audit Reports ..................................................................................................56–61

   5(a)(7)                          Summary of Significant Reports .....................................................................................15–46

   5(a)(8)                          Audit Reports—Questioned Costs ........................................................................................ 54

   5(a)(9)                          Audit Reports—Funds to Be Put to Better Use......................................................................55

   5(a)(10)                         Prior Audit Reports Unresolved ............................................................................................63

   5(a)(11)                         Significant Revised Management Decisions ..........................................................................63

   5(a)(12)                         Significant Management Decisions with Which OIG Disagreed ..........................................63




Section 4(a)(2): Review of Legislation                                           Section 5(a)(3): Prior Significant
and Regulations                                                                  Recommendations Unimplemented

This section requires the inspector general of each agency to                    This section requires identification of each significant recom
review existing and proposed legislation and regulations relating                mendation described in previous semiannual reports for which
to that agency’s programs and operations. Based on this review,                  corrective action has not been completed. Section 5(b) requires
the inspector general is required to make recommendations in the                 that the Secretary transmit to Congress statistical tables showing
semiannual report concerning the impact of such legislation or                   the number and value of audit reports for which no final action has
regulations on the economy and efficiency of the management of                   been taken, plus an explanation of the reasons why recommended
programs and operations administered or financed by the agency                   action has not occurred, except when the management decision
or on the prevention and detection of fraud and abuse in those                   was made within the preceding year.
programs and operations. Comments concerning legislative and
regulatory initiatives affecting Commerce programs are discussed,                To include a list of all significant unimplemented recommenda
as appropriate, in relevant sections of the report.                              tions in this report would be duplicative. Information on the status
                                                                                 of any audit recommendations can be obtained through OIG’s
                                                                                 Office of Audits.




62                                                                                              U.S. Department of Commerce/Office of Inspector General
                                                                                                                 Office of Inspector General




Sections 5(a)(5) and 6(b)(2):                                          Section 5(a)(11): Significant Revised
Information or Assistance Refused                                      management Decisions

These sections require a summary of each report to the Secretary       This section requires an explanation of the reasons for any signifi
when access, information, or assistance has been unreasonably          cant revision to a management decision made during the reporting
refused or not provided. There were no instances during this           period. Department Administrative Order 213-5, Audit Resolution
semiannual period and no reports to the Secretary.                     and Follow-up, provides procedures for revising a management
                                                                       decision. For performance audits, OIG must be consulted and must
Section 5(a)(10): Prior Audit                                          approve in advance any modification to an audit action plan. For
Reports Unresolved                                                     financial assistance audits, OIG must concur with any decision
                                                                       that would change the audit resolution proposal in response to an
This section requires a summary of each audit report issued before     appeal by the recipient. The decisions issued on the four appeals
the beginning of the reporting period for which no management          of audit-related debts were finalized with the full participation and
decision has been made by the end of the reporting period (includ      concurrence of OIG.
ing the date and title of each such report), an explanation of why a
decision has not been made, and a statement concerning the desired     Section 5(a)(12): Significant management
timetable for delivering a decision on each such report. There were    Decisions with Which OIg Disagreed
five Census and three NIST reports more than 6 months old.
                                                                       This section requires information concerning any significant
                                                                       management decision with which the inspector general disagrees.
                                                                       Department Administrative Order 213-5 provides procedures for
                                                                       elevating unresolved audit recommendations to higher levels of
                                                                       Department and OIG management, including their consideration
                                                                       by an Audit Resolution Council. During this period no audit issues
                                                                       were referred to the council.




September 2006/Semiannual Report to Congress                                                                                          63
TyPES OF OIg WORK PRODUCTS



The various kinds of audits, evaluations, inspections, and investi      engagements can have a broad range of financial or nonfinancial
gations at our disposal enable the IG’s office to assess Commerce       focuses, such as an entity’s compliance with laws and regulations;
programs and operations from a range of perspectives. Thus we           management’s discussion and analysis presentations; and allow-
are able to provide program managers with reviews and recom             ability and reasonableness of final grant and contract costs.
mendations that are either narrowly focused or comprehensive, as
needed, to aid them in ensuring the most efficient and effective        INSPECTIONS
use of taxpayer dollars.
                                                                        Inspections	are reviews of an activity, unit, or office, or a con
AUDITS                                                                  tractor or other nonfederal entity that receives funds from the
                                                                        Department. They focus on an organization, not a whole program,
Performance	Audits address the efficiency, effectiveness, and           and are often designed to give agency managers timely and useful
economy of the Department’s programs, activities, and informa           information about operations, including current and foreseeable
tion technology systems. They may check a unit’s compliance             problems.
with laws and regulations, and evaluate its success in achiev
ing program objectives. They may also involve reviewing the             EVALUATIONS
Department’s financial assistance awards by assessing an award
recipient’s compliance with laws, regulations, and award terms;         Program	Evaluations are in-depth reviews of specific manage
allowance of costs; and the degree to which projects achieved           ment issues, policies, or programs.
intended results.
                                                                        Systems	Evaluations review system development, acquisitions,
Financial	Audits determine whether (1) a reporting entity’s             operations, and policy, focusing on computer systems and other
financial statements are presented fairly and in accordance with        technologies.
generally accepted accounting principles; (2) the entity has an
internal control structure that provides reasonable assurance of        INVESTIgATIONS
achieving the control objectives set forth by OMB; and (3) the en
tity complied with laws and regulations that could have a direct and    Investigations are conducted based on alleged or suspected
material effect on the financial statements, the Federal Financial      wrongdoing by Department employees, contractors, recipients of
Management Improvement Act, and other laws and regulations.             financial assistance, and others responsible for handling federal
                                                                        resources. Investigations that expose violations of Department
Attestation	 Engagements involve examining, reviewing, or               rules and regulations or acts of fraud committed against the U.S.
performing agreed-upon procedures on a subject matter or an as          government can result in administrative sanctions and/or criminal
sertion about a subject matter and reporting the results. Attestation   or civil prosecution.




64                                                                                 U.S. Department of Commerce/Office of Inspector General
                             U.S. Department of Commerce
The U.S. Department of Commerce creates the conditions for economic growth and opportunity by
promoting innovation, entrepreneurship, competitiveness, and stewardship. The Department
accomplishes its mission by providing national and local weather services, developing key econom-
ic and demographic data (including the decennial census), and working to advance technological
and scientific innovation, protect and restore environmental resources, promote international trade,
and support local, regional, and national economic development. These activities impact U.S. busi-
ness and industry daily and play a critical role in the nation's economic well-being.




                                      OFFICE OF THE
                                       SECRETARY


   Bureau of                 Economic                  International               U.S. Patent and
 Industry and               Development                    Trade                     Trademark
    Security               Administration             Administration                    Office




              Economics and
                 Statistics                                            Technology
              Administration                                          Administration



                                                                 National         National
                          Bureau of
       Bureau of the                                            Institute of     Technical
                          Economic
         Census                                               Standards and     Information
                          Analysis                             Technology         Service




                                                                    National
                Minority Business        National Oceanic
                                                              Telecommunications
                 Development             and Atmospheric
                                                                and Information
                    Agency                Administration        Administration



                                    National
                                     Marine           National
                                    Fisheries       Ocean Service
                                     Service


                                    National         Marine and
                                    Weather           Aviation
                                    Service          Operations


                                   National
                                Environmental       Oceanic and
                                Satellite, Data,
                                      and           Atmospheric
                                 Information         Research
                                    Service
                                  Commerce Headquarters
                                  Washington, D.C.


                                 OIG Regional Offices




                                       Atlanta, GA




                                       Denver, CO




                                       Seattle, WA




U.S. Department of Commerce
Office of Inspector General
Room 7099 C, HCHB
1401 Constitution Avenue, N.W.
Washington, D.C. 20230
www.oig.doc.gov
